APPENDIX A

14a

Case: 10-10103

Document: 00511712032

Page: 1

Date Filed: 01/03/2012

IN THE UNITED STATES COURT OF APPEALS
United States Court of Appeals
FOR THE FIFTH CIRCUIT
Fifth Circuit

FILED
January 3, 2012

No. 10-10103

Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
COREY DEYON DUFFEY, also known as Keyno, also known as Calvin
Brown; ANTONYO REECE, also known as Seven; CHARLES RUNNELS,
also known as Junior; JARVIS DUPREE ROSS, also known as Dookie, also
known as Dapree Dollars, also known as Fifty; TONY R. HEWITT,
Defendants - Appellants

Appeals from the United States District Court
for the Northern District of Texas
USDC No. 3:08-CR-167-1

Before JOLLY, DEMOSS, and PRADO, Circuit Judges.
E. GRADY JOLLY, Circuit Judge:*
Corey Duffey, Tony Hewitt, Antonyo Reece, Jarvis Ross, and Charles
Runnels devoted their respective talents to the enterprise of robbing banks.
They were convicted of multiple counts of armed robbery, attempted robbery,
and conspiracy and received prison sentences ranging, respectively, from a
minimum of 140 years, to a twenty-nine life sentence imposed on one defendant.
*

Pursuant to 5TH CIR. R. 47.5, the Court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH CIR.
R. 47.5.4.

15a

Case: 10-10103

Document: 00511712032

Page: 2

Date Filed: 01/03/2012

No. 10-10103
Although their criminal enterprise enjoyed some success, the enterprise of
appealing their convictions is likely of marginal value to them, given the
extensive sentences they will have to serve. First, the Appellants argue that
there was only one, overarching conspiracy to rob banks and that their multiple
conspiracy convictions are duplicative, violating the Double Jeopardy Clause.
Second, they argue that their convictions on two counts of attempted bank
robbery are not supported by the evidence, because there was no showing of
“actual force and violence, or intimidation,” which is required to support a
conviction under the first paragraph of 18 U.S.C. § 2113(a) and (d). Because the
government did not establish the underlying offense of attempted bank robbery
on these two counts, they further argue that the two § 924(c)(1) counts for use
of a firearm during the alleged attempted robberies are invalid. Finally, Hewitt,
individually, raises a sentencing issue contending that the presentence report
exaggerates his total offense level, which we reject. For the reasons that follow,
we AFFIRM the convictions except for the two attempted robbery and the two
concomitant § 924(c)(1) convictions under Counts Three, Four, Eighteen, and
Nineteen, which we REVERSE and VACATE. Given that we vacate these
convictions with respect to all Appellants, we VACATE all sentences and
REMAND to the district court to re-sentence all defendants in the light of this
opinion.
I.
A.
From January to June of 2008, Corey Duffey, Tony Hewitt, Antonyo Reece,
Jarvis Ross, and Charles Runnels (collectively, “Appellants”), as well as two coconspirators — Darobie Stenline and Yolanda McDow — constituted a loose
confederacy of bandits who, with varying degrees of success, robbed five banks
in the Dallas-Fort Worth area. Four other individuals — referred to as Nitty,

2
16a

Case: 10-10103

Document: 00511712032

Page: 3

Date Filed: 01/03/2012

No. 10-10103
T.S., Kenny, and J.T. — participated in one or more of the robberies, but were
not indicted for their alleged crimes.
Both Duffey and Hewitt assumed leadership roles of their co-defendants.
They would case banks, invite potential partners to join in the crimes, delegate
roles and responsibilities to their co-conspirators, and participate in the
robberies.
The confederacy made its debut on January 28, 2008 at the Citi Bank in
Garland, Texas. Duffey, Hewitt, Ross, Runnels, Stenline, Nitty, and T.S. were
the actors in this robbery. Hewitt organized the robbery and gave instructions
to the “takeover team” via walkie talkie. The robbers stole a white Oldsmobile
(or Buick) sedan for transportation. This enterprise yielded about $5,000. The
robbers netted a disappointingly paltry sum, because the bank was too large for
the robbers and raiders to control effectively, even with their assortment of guns.
Consequently, they planned for a new, smaller undertaking a few days later.
The group launched their second strike on February 1, 2008 at the
Comercia Bank in Desoto, Texas. Duffey, Hewitt, Runnels, Stenline, McDow,
Nitty, Kenny, and T.S. worked this job and made travel arrangements by
stealing a Ford Explorer. This venture netted a handsome $245,000. Stenline,
T.S., and Hewitt acted as lookouts, while the other participants, bearing an
array of guns, acted as the “takeover team.”
At 1:15 p.m. on March 28, 2008, Duffey, Hewitt, Ross, Runnels, Stenline,
McDow, Nitty, and J.T. ganged up on the Century Bank in Dallas, Texas,
choosing for transportation a stolen white Chevy Suburban on this occasion.
Before this operation, Hewitt sent McDow a text message asking whether she
“wanted to make some money.”

Obviously ambitious, McDow put her

considerable talents to work for Hewitt by casing the bank and reporting her
observations to Hewitt. The robbery was captured on the bank’s security
cameras, which showed several men wearing masks and armed with handguns
3
17a

Case: 10-10103

Document: 00511712032

Page: 4

Date Filed: 01/03/2012

No. 10-10103
and a taser. Stenline, Hewitt, and McDow acted as lookouts. As the risk-takers
were making their getaway, a dye-pack stowed with the stolen bills exploded,
rendering almost all of the money tainted.

Recognizing that all business

undertakings are not successful, the gang quickly abandoned the tainted funds
and the getaway car in a local apartment complex. After this failure, Hewitt met
McDow at a drug store and told her that the bandits had not made any money
because the money bag had broken. McDow, who testified for the government,
was not informed of any future plans to rob a bank that day.
Because the Century Bank robbery failed, Duffey and Hewitt were
discouraged, but only temporarily. Indeed, they decided to rob another bank the
same day. Hewitt called Stenline at home that afternoon and invited him to join
a job in Garland. At 4:00 p.m., the same dye-stained group that victimized the
Century Bank, except for McDow and J.T., robbed the State Bank of Texas in
Garland. Because the group needed another getaway car, Nitty hoped to reverse
their loss with a different colored stolen Suburban — lucky-blue. Stenline and
Hewitt acted as lookouts while the others robbed the bank at gunpoint. The
robbers took small, but worthwhile profit of about $14,700 from the State Bank
of Texas.
On April 24, all five Appellants, along with Stenline and McDow, robbed
a Bank of America in Irving, Texas. Both Stenline and McDow agreed to work
the robbery that day. The group traveled in the same stolen, lucky-blue
Suburban that served them well in the State Bank of Texas job a month earlier.
This time, instead of just threatening the bank’s employees with guns, the
robbers used a taser to stun bank tellers. Hewitt, Stenline, and McDow acted
as lookouts for the robbery. This worthwhile venture yielded $84,000. It was,
however, the last productive showing of this loosely coordinated gang of bandits.
It was May 15 that FBI agents, on high alert because of the gang’s crime
spree, observed Stenline and Hewitt near the Bank of America in Fort Worth,
4
18a

Case: 10-10103

Document: 00511712032

Page: 5

Date Filed: 01/03/2012

No. 10-10103
Texas. Based on Hewitt and Stenline’s suspicious behavior, the agents believed
that the men were casing a bank in the area. The following day, FBI agents once
again observed Hewitt, Stenline, McDow, and other suspected bandits in the
same area. The bank takeover team, armed with guns, drove to the bank and
parked. The team waited for Duffey to give the sign. But, no signal came.
Outside the bank, a man seemed to give Duffey a knowing wink, which led
Duffey to think the man indicated some knowledge of what was happening. He
immediately canceled the robbery. The rest of the group dispersed and returned
to Dallas. McDow testified that she “was prepared” but then she got a message
from Hewitt “saying it wasn’t going to happen, and everybody basically went
their separate ways.”
On May 21, an FBI surveillance team spotted Duffey, Ross, and Stenline
casing the two, different Bank of America locations in Richardson, Texas. FBI
agents, in short order, initiated an emergency wiretap. On May 22, information
gathered from the wiretap suggested that a robbery was imminent. The robbers
abandoned the plan to rob the banks in Richardson, however, because they
believed that the “alphabet boys,” also known as the FBI, were on to the plan.
Stenline testified that the robbery scheme included plans to kidnap a bank
manager. At trial, the government introduced a purple notebook in which
Duffey had recorded details about the Bank of America branches, including bank
employee names, employee vehicle descriptions and license plate numbers, and
employee home addresses. When asked at trial why they abandoned the scheme
to rob these banks, Stenline said: “I guess the plan didn’t come together.”
Finally, through telephone intercepts, FBI agents learned that the
Appellants, along with Stenline and McDow, were planning a robbery venture
at the Regions Bank in Garland, Texas on June 2. On June 1, Duffey followed
the usual plan and stole a Suburban — this time, silver in color. FBI agents
overheard Duffey saying that he had called for all hands at the ready and the
5
19a

Case: 10-10103

Document: 00511712032

Page: 6

Date Filed: 01/03/2012

No. 10-10103
response was full participation, at least by our Appellants, for this particular job.
The FBI was also ready. Near the Regions Bank, FBI agents observed Duffey
and Ross parking the stolen, silver Suburban. They saw the two men meet with
Hewitt and McDow in the bank’s parking lot. The co-conspirators, Runnels and
Reece, parked behind the stolen Suburban in Runnels’s vehicle.

Law

enforcement officials then moved in to arrest the gathered gang. Stenline and
McDow were arrested without incident, but Appellants — all of whom were
heavily armed — turned their attention from their crime to flight, at which point
the FBI and police turned their attention from arrest to pursuit. The Appellants
were ultimately apprehended after high-speed chases, hostage-taking,
kidnaping, police stand-offs, and collisions. But in the end, this confederacy of
bandits lay down their arms — if not voluntarily — and were given
transportation in a government Suburban to their new residence.
B.
In July and August of 2009, the case was tried before a jury. The jury
convicted the Appellants, in various combinations contingent upon their
involvement in each particular offense, of nine counts of Conspiracy to Commit
Bank Robbery,2 two counts of Attempted Bank Robbery under 18 U.S.C. §
2113(a) and (d),3 and five counts of Bank Robbery and Aiding and Abetting.4 The
Appellants were also convicted of multiple 18 U.S.C. § 924(c)(1) firearm charges
appurtenant to their violent federal crimes, which carried with them five to

2

Duffey and Hewitt were convicted of nine conspiracy counts, Reece was convicted of
three counts, Ross was convicted of eight counts, and Runnels was convicted of seven counts.
3

All of the Appellants were convicted of both attempted robbery counts under 18 U.S.C.
§ 2113(a) and (d).
4

Runnels, Hewitt, and Duffey were convicted of five bank robbery counts, and Reece
was convicted of one count. Ross was convicted of four counts.

6
20a

Case: 10-10103

Document: 00511712032

Page: 7

Date Filed: 01/03/2012

No. 10-10103
twenty-five year mandatory minimum sentences.5 Additionally, Hewitt, Ross,
and Runnels were convicted as felons in possession of a firearm; and Ross was
convicted of kidnaping. Runnels was also convicted of assaulting a federal officer.
Consequently, the district court sentenced Duffey to 4,253 months (354
years) of imprisonment, Hewitt to 4,260 months (355 years) of imprisonment,
Ross to 3,960 months (330 years) of imprisonment, and Recce to 1,680 months
(140 years) of imprisonment.

Based upon a violent recidivist enhancement,

Runnels was sentenced to twenty-nine life sentences and, should he complete
those sentences, to an additional 120 months in prison for being a convicted felon
in possession of a firearm.
II.
Each of the Appellants raise essentially the same arguments: that the
evidence supports only one conspiracy and, thus, the multiple conspiracy counts
in the indictment are duplicative, violating the Double Jeopardy Clause; second,
that the evidence is insufficient to support their convictions on two counts of
attempted bank robbery; and, finally, that the § 924(c)(1) firearm convictions
incidental to the two attempted robbery counts are void for want of an
underlying offense, that is, the attempted robbery charges. Hewitt, individually,
raises a sentencing issue, contending that the PSR inflates his total offense level,
rendering his prison sentence too lengthy.
III.
We begin our consideration of this appeal by addressing whether the
evidence shows only a single conspiracy to commit the multiple bank robberies,
as opposed to separate conspiracies for each robbery. If there is only one
conspiracy, the Appellants’ sentences would be significantly reduced.

5

Runnels, Hewitt, Duffey were convicted of fourteen § 924(c) counts. Ross was
convicted of thirteen counts, and Reece was convicted of six counts.

7
21a

Case: 10-10103

Document: 00511712032

Page: 8

Date Filed: 01/03/2012

No. 10-10103
Courts may look to circumstantial evidence in order to determine the
conspiracy’s scope. United States v. Kalish, 690 F.2d 1144, 1151 (5th Cir.1982),
cert. denied, 459 U.S. 1108, 103 S.Ct. 735, 74 L.Ed.2d 958 (1983). Unless the
evidence presented at trial establishes separate conspiracies as a matter of law,
whether a single conspiracy or multiple conspiracies existed is a question for the
jury to determine.6 United States v. Elam, 678 F.2d 1234, 1245 (5th Cir.1982);
United States v. Michel, 588 F.2d 986 (5th Cir.), cert. denied, 444 U.S. 825
(1979). We follow a five-step analysis, commonly referred to as the “Marable
factors,” United States v. Marable, 578 F.2d 151, 154 (5th Cir.1978), to ascertain
whether the record demonstrates that a criminal venture constitutes one or more
conspiracies: (1) the time frame during which the alleged conspiracies occurred;
(2) the extent to which the same persons were involved and the nature of their
involvements; (3) whether the statutory offenses charged in the indictments
were the same; (4) whether the nature and scope of the defendants’ activities
charged in connection with each alleged conspiracy were repetitive and
continuous; and (5) whether the locations where the events alleged as part of
each conspiracy took place were the same. United States v. Atkins, 834 F.2d 426,
432-33 (1987); Kalish, 690 F.2d at 1151-52. No single Marable factor is outcome
determinative, and the Government bears the burden of proving that separate
offenses occurred by a preponderance of the evidence. United States v. Greer,
939 F.2d 1076, 1087 n.11 (5th Cir. 1991) (citing United States v. Levy, 803 F.2d
1390, 1393-94 (5th Cir.1986)). In evaluating the five factors, the Court must
consider the evidence in the light most favorable to the jury’s verdict. Elam, 678
F.2d at 1247.

6

The jury was not instructed to find whether a single conspiracy or multiple
conspiracies exist here. The jury was, however, instructed on nine conspiracy counts,
requiring the prosecution to present proof of nine, separate agreements. Presumably, if the
prosecution failed to meet this burden, then the jury would not have returned convictions on
nine, different conspiracies.

8
22a

Case: 10-10103

Document: 00511712032

Page: 9

Date Filed: 01/03/2012

No. 10-10103
1. Time Frame. The robberies occurred over the course of six months in
2008.

This inquiry is informed not only by the temporal duration of the

conspiracy but also whether there was any chronological overlap in the planning
of the crimes, i.e. whether two or more conspiracies were planned or conducted
during the same time period. See Levy, 803 F.2d at 1394-95; United States v.
Goff, 847 F.2d 149, 172 (5th Cir. 1988).
Two robberies occurred on March 28, 2008. The Government presented
evidence, however, that the group planned the second robbery only after the first
robbery was unsuccessful, because they had not netted sufficient loot. McDow
testified at trial that she only knew of the first robbery that day and was not
invited to take part in the second crime. Additionally, Stenline went home after
the first robbery and was not aware that there was going to be a second robbery
until after Hewitt called him at home. Thus, the evidence shows that two
separate agreements were reached, hours apart, to rob different banks on the
same day; and, consequently, agreements relating to these two robberies did not
exist in any overlapping or simultaneous time frame.
Although the Appellants contend that their agreement was a single, sixmonth-long, conspiracy to rob banks, the Appellants presented no evidence
showing that there was an overarching plan connecting one robbery to another.
Furthermore, they presented no evidence supporting the existence of a single,
umbrella-agreement, covering their myriad of criminal escapades. Indeed, the
planning and agreement for the respective robberies and attempted robberies
appears to have been from day-to-day and bank-to-bank.
2. Personnel. This court has said that “where the membership of two
criminal endeavors overlap, a single conspiracy may be found.” Elam, 678 F.2d
at 1246. We have also noted that a “mere shuffling of personnel in an otherwise
on-going operation with an apparent continuity will not, alone, suffice to create
multiple conspiracies.” United States v. Nichols, 741 F.2d 767, 772 (5th Cir.
9
23a

Case: 10-10103

Document: 00511712032

Page: 10

Date Filed: 01/03/2012

No. 10-10103
1984). Here, all of the robberies had three men in common: Duffey, Hewitt, and
Stenline. Moreover, the evidence suggests that both Hewitt and Duffey had
major responsibilities in the planning of the crimes. See United States v. ThermAll Inc., 373 F.3d 625, 637 (5th Cir. 2004) (“A single conspiracy exists where a
‘key man’ is involved in and directs illegal activities, while various combinations
of other participants exert individual efforts toward a common goal.”) (quoting
United States v. Richerson, 833 F.2d 1147, 1154 (5th Cir. 1987)); see also
Richerson, 833 F.2d at 1154 (“Parties who knowingly participate with core
conspirators to achieve a common goal may be members of an overall
conspiracy.”). Furthermore, although the same people did not participate in
each and every bank robbery, there was regular similarity in the group’s actors.
Thus, because Hewitt and Duffey acted as key men in organizing the crimes and
because the band of robbers on each occasion appears to have been drawn from
the same general group of outlaws, this consideration indicates a single
conspiracy.
3. Offense Charged. All nine conspiracy counts relate to the violation of 18
U.S.C. § 2113(a) and (d), which is indicative of a single conspiracy.
4. Overt Acts. Although all of the conspiracy counts related to bank
robbery, there was no duplicating evidence presented as proof of each crime. See
Kalish, 690 F.2d at 1152 (requiring that different, non-overlapping acts be
presented as evidence of separate conspiracies). Here, separate and distinct
evidence supports each conspiracy count. Still further, the evidence shows a
separate agreement for each robbery.

For instance, Stenline and McDow

testified that the agreement to rob a bank would often be made mere days before
the intended robbery. Thus, because the evidence presented to prove each
conspiracy did not overlap, the absence of a unifying plan weighs in favor of
multiple conspiracies.

10
24a

Case: 10-10103

Document: 00511712032

Page: 11

Date Filed: 01/03/2012

No. 10-10103
5. Geography. The Appellants assert that because all robberies occurred
in the Dallas Metroplex, the conspiratorial acts took place in one geographic
location. The robberies, however, took place at different banks throughout the
Dallas area, with no two banks robbed twice. Our geographic analysis can be
guided by a consideration of how the crime at issue is usually committed. Given
the episodic nature of the crime of bank robbery, as opposed to other criminal
schemes; the sporadic nature of these robberies; and the jury’s verdict of
multiple conspiracy convictions, we find that each bank served as a separate and
distinct location for the purposes of Marable. Compare United States v. Greer,
939 F.2d at 1087-88 (holding that when white supremacists committed sporadic
hate crimes, blocks away from each other, in a park and in a synagogue, the
evidence supported a finding of different locations, which endorsed the existence
of multiple conspiracies); with United States v. Nichols, 741 F.2d 767, 772 (5th
Cir. 1984) (holding that, in the case of a massive, established drug importation
scheme, New Orleans and Raceland, Louisiana; Belize; and Colombia were the
same geographic location, supporting the existence of one conspiracy).
Applying the Marable factors to the instant facts, we conclude that the
evidence is sufficient to establish multiple conspiracies. Although the
conspiracies had a certain continuity of personnel and a certain similarity in
method, the jury’s return of multiple conspiracy convictions is supported by the
evidence: there were separate and distinct agreements for each robbery; the
actual acts in the separate counts of the indictment, both alleged and proved,
were different; the geographic locations of the individual crimes were sufficiently
distinct, and the timing of the conspiracy was sufficiently long to suggest the
existence of separate agreements.

Stated differently, although a loose

confederacy committed the crimes and the crimes underlying the conspiracies
were the same, the evidence relating to the other Marable factors is substantial,
so as to support the jury’s finding of multiple conspiracies.
11
25a

Case: 10-10103

Document: 00511712032

Page: 12

Date Filed: 01/03/2012

No. 10-10103
IV.
A.
We come now to the Appellants’ challenge to the sufficiency of the evidence
relating to their two attempted robbery convictions under the first paragraph of
18 U.S.C. § 2113(a) and (d).7 Each Appellant was convicted under the same
federal statutes for attempted robbery, as they were for armed robbery; that is
to say that the crime of attempted bank robbery is enfolded in the same
statutory paragraphs as the crime of actual bank robbery, and one subsection
can reference another in stating the requirements of a particular crime.
The jury convicted all Appellants of two attempted robbery counts, when
the actual robbery plan was abandoned: first, based on their plan to rob the
Bank of America in Fort Worth and, second, based on their gathering at the
Regions Bank in Garland. At the Bank of America in Fort Worth, the takeover
team, armed with guns, drove to the bank and waited in a stolen Suburban for
Duffey to initiate the robbery. Duffey called off the plan at the last minute
because a bank patron winked at him, leading him to believe that the patron was
aware of the impending robbery. The Appellants left the bank parking lot
without any incident. There was no attempt to enter the bank or take the bank
by force that day.
Similarly, at the Regions Bank in Garland, an FBI surveillance team
observed the Appellants parking both a stolen silver Suburban and maroon pick-

7

The Appellants were not indicted under the second paragraph of 18 U.S.C. § 2113(a),
nor would the evidence in this case support an indictment against the Appellants under the
second paragraph of 2113(a). See 18 U.S.C. § 2113(a) (“Whoever enters or attempts to enter
any bank, credit union, or any savings and loan association, or any building used in whole or
in part as a bank, credit union, or as a savings and loan association, with intent to commit in
such bank, credit union, or in such savings and loan association, or building, or part thereof,
so used, any felony affecting such bank, credit union, or such savings and loan association and
in violation of any statute of the United States . . . [s]hall be fined under this title or
imprisoned not more than twenty years, or both.”). Here, under the counts at issue, the
Appellants did not enter or attempt to enter the bank.

12
26a

Case: 10-10103

Document: 00511712032

Page: 13

Date Filed: 01/03/2012

No. 10-10103
up truck. After hearing Duffey say that he was ready to rob the bank, the agents
moved in to arrest the Appellants. At no point in time during this transaction
did the Appellants attempt to take the bank by force, enter the bank, or brandish
a firearm.
We start our sufficiency of the evidence analysis by differentiating between
the first paragraph of subsection (a) and subsection(d) of the federal bank
robbery statute. Whereas 18 U.S.C. § 2113(a)8 makes bank robbery and
attempted bank robbery a federal crime, § 2113(d)9 relates to armed robbery and
serves as an enhancement to the crimes under § 2113(a), when they are
accompanied by the use of firearms or an assault.10
The Appellants argue that § 2113(d), by its own terms, requires proof of
all of the elements of § 2113(a) plus the use of a firearm; and, thus, § 2113(a) is
a lesser-included offense of § 2113(d). This is true. Comparing the statutes set
out in the margins below, the plain language of the first paragraph of subsection

8

Whoever, by force and violence, or by intimidation, takes, or
attempts to take, from the person or presence of another, or
obtains or attempts to obtain by extortion any property or money
or any other thing of value belonging to, or in the care, custody,
control, management, or possession of, any bank, credit union, or
any savings and loan association
...
Shall be fined under this title or imprisoned not more than twenty years,
or both.
18 U.S.C. § 2113(a).
9

Whoever, in committing, or in attempting to commit, any offense
described in subsections (a) or (b) of this section assaults any
person, or puts in jeopardy the life of any person by the use of a
dangerous weapon or device, shall be fined under this title or
imprisoned for not more than twenty-five years or both.
18 U.S.C. § 2113(d).
10

The punishment for bank robbery is a maximum of twenty years in prison. 18 U.S.C.
§ 2113(a). The punishment for armed bank robbery is a maximum of twenty-five years in
prison. 18 U.S.C. § 2113(d).

13
27a

Case: 10-10103

Document: 00511712032

Page: 14

Date Filed: 01/03/2012

No. 10-10103
(a) specifically requires proof of the defendant’s actual use of “force and violence”
or “intimidation” as an element of attempted robbery; and subsection (d) only
applies to defendants who have committed all of the elements of an offense
outlined in subsections (a) or (b). Because the first paragraph of § 2113(a)
requires evidence of the use of “force and violence” or “intimidation,” charges
under § 2113(d), premised upon violations of the first paragraph of subsection
(a), ipso facto require evidence of the use of “force and violence” or “intimidation.”
The Appellants further argue that the Government failed to offer any evidence
that they acted with “force and violence” or “intimidation,” while attempting to
rob the Bank of America in Fort Worth and the Regions Bank in Garland. Thus,
the Government’s failure to prove all of the statutory elements of the first
paragraph of § 2113(a) and (d) renders the Appellant’s attempted robbery
convictions invalid as a matter of law. We agree.
To be candid, the Government’s counter argument is without the slightest
merit. Essentially, the Government contends that the phrase “in attempting to
commit” in § 2113(d) excuses the Government of its burden of proving the
elements of the first paragraph of § 2113(a), including the defendants’ use of
“force and violence” or “intimidation.” The Government advances this argument
notwithstanding unanimous precedent to the contrary and the plain language
of the statute making it unequivocally clear that an attempt crime under §
2113(d) requires proof of the elements of § 2113(a) or (b).
Indeed, we have previously confirmed that the “natural reading of the
text” of the first paragraph of § 2113(a) requires that the evidence show an
actual use of “force and violence, or intimidation.” United States v. Bellew, 369
F.3d 450, 454 (5th Cir. 2004). Furthermore, the natural language of § 2113(d)
enfolds all of the elements of § 2113(a), rendering § 2113(a) a lesser-included
offense of § 2113(d). Burger v. United States, 454 F.2d 723 (5th Cir. 1972) (per
curiam) (“Section 2113(a) is a lesser included offense of Section 2113(d).”)
14
28a

Case: 10-10103

Document: 00511712032

Page: 15

Date Filed: 01/03/2012

No. 10-10103
(brackets omitted); see also United States v. Fletcher, 121 F.3d 187, 193 (5th Cir.
1997) (“[T]he elements of § 2113(d) include all of the elements of § 2113(a), plus
the additional element of assault.”), overruled on other grounds by United States
v. Cotton, 535 U.S. 625 (2002); United States v. Davila-Nater, 474 F.2d 270 (5th
Cir. 1973); Rose v. United States, 448 F.2d 389 (5th Cir. 1971);United States v.
White, 440 F.2d 978 (5th Cir.), cert. denied 404 U.S. 839 (1971). Indeed, the
Supreme Court has described § 2113(a) as “the same offense as § 2113(d) without
the elements of aggravation.” Green v. United States, 365 U.S. 301, 303 (1961);
see also Prince v. United States, 352 U.S. 322, 327, 327 n.6 (1957) (explaining
that, in enacting the Bank Robbery Act, “[i]t was manifestly the purpose of
Congress to establish lesser offenses,” and noting that § 2113(d) is “a special
provision for increased punishment for aggravated offenses”).
Thus, in order for the Appellants’ attempted robbery convictions to survive
a sufficiency of the evidence review, the Government must have presented
evidence that the Appellants acted with “force and violence, or intimidation”
during the incidents at the Bank of America in Fort Worth and the Regions
Bank in Garland. See United States v. Stracener, 959 F.3d 31, 33 (5th Cir. 1992).
The Government, however, does not offer any proof of “force and violence, or
intimidation” to support of either attempted robbery count. Instead, it concedes
that, “[u]nder Bellew [Fifth Circuit case interpreting § 2113(a)][,] . . . the
defendants here would likely prevail.” Appellee br. at 48.

Because the

Government acknowledges that the defendants did not act with “force and
violence, or intimidation,” as required by the first paragraph of 18 U.S.C. §
2113(a) and (d) during the incidents at the Bank of America in Fort Worth and
the Regions Bank in Garland, we reverse and vacate both attempted robbery
convictions and sentences.
B.

15
29a

Case: 10-10103

Document: 00511712032

Page: 16

Date Filed: 01/03/2012

No. 10-10103
We next examine the two, separate § 924(c)(1)11 charges appurtenant to
the two attempted robbery charges. Section 924(c)(1) punishes the use of a
firearm in the commission of a federal crime of violence. Id. We held in United
States v. Munoz-Fabela that in order for the Government to convict a defendant
under § 924(c)(1), “it is only the fact of the offense . . . that is needed to establish
the required predicate.” 896 F.2d 908, 911 (5th Cir.), cert. denied, 498 U.S. 824
(1990). The Government failed to establish “the fact of the offense” when it
failed to establish the elements of attempted robbery were present during the
incidents at the Bank of America in Fort Worth and the Regions Bank in
Garland. Thus, the § 924(c)(1) charges are not predicated upon behavior that
constitutes the predicate federal offense. See id. We therefore reverse and vacate
the Appellants’ two § 924(c)(1) convictions and sentences.
V.
Finally, Hewitt challenges his sentence, asserting that the presentence
report overstates his total offense level; and, thus, his sentence is excessive.
First, Hewitt challenges the inclusion of multiple conspiracy counts in his
sentence. This issue has already been addressed and has no merit.

11

18 U.S.C. § 924(c)(1)(I) provides:
“Except to the extent that a greater minimum sentence is
otherwise provided by this subsection or by any other provision
of law, any person who, during and in relation to any crime of
violence or drug trafficking crime (including a crime of violence
or drug trafficking crime that provides for an enhanced
punishment if committed by the use of a deadly or dangerous
weapon or device) for which the person may be prosecuted in a
court of the United States, uses or carries a firearm, or who, in
furtherance of any such crime, possesses a firearm, shall, in
addition to the punishment provided for such crime of violence or
drug trafficking crime . . . be sentenced to a term of
imprisonment of not less than 5 years”

16
30a

Case: 10-10103

Document: 00511712032

Page: 17

Date Filed: 01/03/2012

No. 10-10103
Second, Hewitt asserts that the presentence report exaggerates his
leadership role in the robberies and thereby improperly assigns multiple, fourpoint enhancements to his sentences. When a sentencing judge, in the exercise
of discretion, imposes a sentence “within a properly calculated Guideline range,
in our reasonableness review we will infer that the judge has considered all the
factors for a fair sentence set forth in the Guidelines” and that “it will be rare for
a reviewing court to say such a sentence is ‘unreasonable.’” United States v.
Mares, 402 F.3d 511, 519 (5th Cir. 2005). Hewitt fails to provide a factual or
legal basis explaining why these enhancements were erroneous; this issue is
thus waived. Even if the challenge to the enhancements has not been waived,
there is ample evidence that Hewitt took a leadership position in the confederacy
of robbers. Thus, we find no merit to Hewitt’s challenges to the presentence
report.
VI.
To sum up, we reject the Appellants’ assertions (1) that the Government
violated the double jeopardy clause by charging multiple conspiracies instead of
a single conspiracy, and (2) that the presentence report overstates Hewitt’s
offense level. We hold, however, that the Government presented insufficient
evidence to convict the Appellants on the counts of attempted robbery and the
corresponding § 924(c)(1) counts.
Thus, we AFFIRM all of the Appellants’ convictions, with the exception of
the Appellants’ two attempted robbery and two accompanying firearm offenses.
We REVERSE and VACATE the convictions of all Appellants on Counts Three,
Four, Eighteen, and Nineteen. Accordingly, we REMAND for resentencing in
accordance with this opinion.
AFFIRMED in part, REVERSED and VACATED in part, and
REMANDED for resentencing.

17
31a

APPENDIX B

32a

Case: 17-11078

Document: 00515138227

Page: 1

Date Filed: 09/30/2019

REVISED September 30, 2019
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 17-11078

United States Court of Appeals
Fifth Circuit

FILED
September 9, 2019
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff–Appellee,
versus
ANTONYO REECE, also known as Seven,

Defendant–Appellant.

Appeals from the United States District Court
for the Northern District of Texas

Before SMITH, DENNIS, and OWEN, Circuit Judges.
JERRY E. SMITH, Circuit Judge:
Antonyo Reece stands convicted of four counts of using and carrying a
firearm during and in relation to a crime of violence (“COV”), in violation of
18 U.S.C. § 924(c). For three of those four counts, the underlying COV was
conspiracy to commit bank robbery. After his convictions were affirmed on
direct appeal, Reece filed a federal habeas corpus petition seeking vacatur of
33a

Case: 17-11078

Document: 00515138227

Page: 2

Date Filed: 09/30/2019

No. 17-11078
his three conspiracy-predicated § 924(c) convictions on the ground that
Johnson v. United States, 135 S. Ct. 2551 (2015), and Sessions v. Dimaya,
138 S. Ct. 1204 (2018), rendered § 924(c)(3)(B) unconstitutionally vague. The
district court denied his petition, and Reece appealed. While his appeal was
pending, the Supreme Court held § 924(c)(3)(B) unconstitutional. See United
States v. Davis, 139 S. Ct. 2319 (2019). We therefore vacate and remand for
resentencing.
I.
Reece, a member of the “Scarecrow Bandits,” was charged with twelve
crimes connected to a series of bank robberies. Specifically, Reece was charged
with three counts of conspiracy to commit bank robbery, two counts of
attempted bank robbery, one count of bank robbery, and six counts—one pertaining to each of the six aforementioned charges—of using and carrying a firearm during and in relation to a COV.
Section 924(c) subjects to criminal liability “any person who, during and
in relation to any [COV] . . . uses or carries a firearm, or who, in furtherance of
any such crime, possesses a firearm.” Section 924(c) offenses do not stand
alone—they require a predicate COV. The statute contains two clauses defining COV. The first, the so-called “elements clause,” defines a COV as a felony
that “has as an element the use, attempted use, or threatened use of physical
force against the person or property of another.” 18 U.S.C. § 924(c)(3)(A). The
second, the so-called “residual clause,” defines a COV as a felony “that by its
nature, involves a substantial risk that physical force against the person or
property of another may be used in the course of committing the offense.” Id.
§ 924(c)(3)(B).
Reece was convicted on all charges and sentenced to 1,680 months’
imprisonment. He appealed, and his convictions for the attempted robberies
2
34a

Case: 17-11078

Document: 00515138227

Page: 3

Date Filed: 09/30/2019

No. 17-11078
and the related firearms charges were reversed. On remand, he was sentenced
to 1,080 months, of which 960 related to the remaining four § 924(c) charges—
60 months for the first count and 300 months for each additional count. 1 Reece
again appealed, and his sentence was affirmed.

He did not challenge

§ 924(c)(3)(B)’s constitutionality in either of his direct appeals.
Reece filed a timely motion under 28 U.S.C. § 2255, claiming, inter alia,
that his § 924(c) convictions were unconstitutional because bank robbery and
conspiracy to commit bank robbery no longer constituted COVs after Johnson
and Dimaya. 2 The magistrate judge recommended that Reece’s claims for
relief from his § 924(c) convictions be denied because both federal bank robbery
and conspiracy to commit bank robbery constituted § 924(c) COVs under
United States v. Sealed Appellant 1, 591 F.3d 812 (5th Cir. 2009). The district
court accepted the magistrate judge’s report and denied the § 2255 motion. The
Initial violations of § 924(c) carry a mandatory five-year minimum sentence to run
consecutively to any sentence received. 18 U.S.C. § 924(c)(1)(A)(i). Repeat violations are
punished by a mandatory twenty-five-year sentence to run consecutively. Id. § 924(c)(1)(C)(i).
At the time that Reece was convicted, that mandatory twenty-five-year penalty could be
imposed for additional violations of the statute that were charged in the same prosecution.
See Davis, 139 S. Ct. at 2324 n.1. The First Step Act of 2018 amended § 924(c)(1)(C) to apply
only after a “prior conviction under this subsection has become final.” Pub. L. 115–391,
§ 403(a), 132 Stat. 5194, 5222.
1

Reece’s reliance on Johnson and Dimaya is misplaced. Neither announced a new
rule of constitutional law regarding § 924(c)(3)(B). See United States v. Tolliver, 772 F. App’x
144, 146 n.1 (5th Cir. 2019) (“[T]he right ‘recognized by the Supreme Court’ in Dimaya is not
the same right yet to be recognized in § 924(c)(3)(B)—no matter how similar the provisions
may seem.”); United States v. Williams, 897 F.3d 660, 662 (5th Cir. 2018) (“Though the Court
has instructed the courts of appeals to reconsider § 924(c)(3)(B) cases in light of Dimaya, that
instruction does not amount to a determination that the provision is unconstitutional.”
(internal citations omitted)).
2

In his reply brief, however, Reece also relied on United States v. Davis, 903 F.3d 483,
486 (5th Cir. 2018), aff'd in part, vacated in part, remanded, 139 S. Ct. 2319 (2019), which
held § 924(c)(3)(B) unconstitutionally vague. That was the first chance he had to invoke
Davis after it was issued. “[W]e liberally construe briefs of pro se litigants and apply less
stringent standards to parties proceeding pro se than to parties represented by counsel. . . .”
Grant v. Cuellar, 59 F.3d 523, 524 (5th Cir. 1995) (per curiam). As a result, we consider
Reece’s petition in light of the Supreme Court’s affirmation of our holding in Davis.

3

35a

Case: 17-11078

Document: 00515138227

Page: 4

Date Filed: 09/30/2019

No. 17-11078
court also denied a certificate of appealability (“COA”).
Reece appealed the latter denial, and this court issued a COA limited to
three questions: (1) whether Dimaya rendered § 924(c)(3)(B) unconstitutionally vague, (2) whether Dimaya applied retroactively to § 924(c) cases on collateral review, and (3) whether, in the wake of Dimaya, a conviction for
conspiracy to commit a COV itself qualifies as a COV.
II.
“When considering challenges to a district court’s decisions under
28 U.S.C. § 2255, this court reviews questions of law de novo.” United States
v. Taylor, 873 F.3d 476, 479 (5th Cir. 2017). Each of the three certified issues
is a question of law.
A.
A habeas applicant may file a § 2255 motion where a constitutional “right
has been newly recognized by the Supreme Court and made retroactively
applicable to cases on collateral review.” 28 U.S.C. § 2255(f)(3). Therefore,
before we consider the merits of Reece’s petition, we address (1) whether Davis
announced a new rule of constitutional law, and (2) if so, whether Davis retroactively applies to cases on collateral review.
1.
“A case announces a new rule . . . when it breaks new ground or imposes
a new obligation on the government”—in other words, “if the result was not
dictated by precedent existing at the time the defendant’s conviction became
final.” In re Williams, 806 F.3d 322, 324 (5th Cir. 2015). “[A result] is not so
dictated . . . unless it would have been apparent to all reasonable jurists.”
Chaidez v. United States, 568 U.S. 342, 347 (2013) (internal quotations marks
omitted). Merely applying an existing rule to a different set of facts does not
4
36a

Case: 17-11078

Document: 00515138227

Page: 5

Date Filed: 09/30/2019

No. 17-11078
create a new rule. Yates v. Aiken, 484 U.S. 211, 216–17 (1988). A new rule
may be created, however, by extending an existing rule to a new legal setting
not mandated by precedent. Stringer v. Black, 503 U.S. 222, 228 (1992).
Davis easily meets those criteria. 3 In holding that the residual clause of
§ 924(c)(3) was unconstitutionally vague, the Court extended its holdings in
Johnson and Dimaya—which invalidated different (but similarly worded)
provisions in other statutes—to § 924(c)(3)(B). 4 The Davis ruling resolved a
circuit split regarding the residual clause’s constitutionality, which evidences
that the result in Davis was not apparent to all reasonable jurists.
2.
Because Reece was convicted before Davis’s rule was recognized, Davis
must apply retroactively for Reece to avail himself of its protection. Generally,
new rules of constitutional law do not provide a basis for post-conviction relief.
See Teague v. Lane, 489 U.S. 288, 310 (1989). Because Reece “seeks the benefit
of a new rule, we must decide whether the rule falls within one of the narrow

The government contends that Reece’s petition is procedurally barred because he did
not raise a constitutional challenge to § 924(c)(3)(B) in either of his direct appeals. “[A] collateral challenge may not do service for an appeal.” United States v. Shaid, 937 F.2d 228,
231 (5th Cir. 1991) (en banc) (internal quotation marks and citation omitted). “A section 2255
movant who fails to raise a constitutional or jurisdictional issue on direct appeal waives the
issue for a collateral attack on his conviction, unless there is cause for the default and prejudice as a result.” United States v. Kallestad, 236 F.3d 225, 227 (5th Cir. 2000). That standard
imposes “a significantly higher hurdle than the plain error standard” that governs direct
appeals. United States v. Pierce, 959 F.2d 1297, 1301 (5th Cir. 1992) (internal quotation
marks and citation omitted). The “cause and prejudice” test applies absent an “extraordinary
case” of actual innocence. See Murray v. Carrier, 477 U.S. 478, 496 (1986).
3

Here, however, the cause and prejudice standard does not apply. As Davis reaffirmed,
“a vague law is no law at all.” Davis, 139 S. Ct. at 2323. If Reece’s convictions were based
on the definition of [COV] articulated in § 924(c)(3)(B), then he would be actually innocent of
those charges under Davis. The government’s brief recognizes as much.
And in so holding, the Court expressly rejected the “case-specific approach” for which
the government here advocates because such an approach could not “be squared with
[§ 924(c)(3)’s] text, context, and history.” Davis, 139 S. Ct. at 2324, 2327.
4

5

37a

Case: 17-11078

Document: 00515138227

Page: 6

Date Filed: 09/30/2019

No. 17-11078
exceptions to the non-retroactivity principle” established in Teague. Burdine
v. Johnson, 262 F.3d 336, 341 (5th Cir. 2001). Two types of rules typically
apply retroactively: (1) “new substantive rules,” Welch v. United States,
136 S. Ct. 1257, 1264 (2016) (alteration, emphasis, and citation omitted), and
(2) “new watershed rules of criminal procedure,” id. (internal quotation marks
and citation omitted).
“Substantive rules include rules forbidding criminal punishment of certain primary conduct, as well as rules prohibiting a certain category of punishment for a class of defendants because of their status or offense.” Montgomery
v. Louisiana, 136 S. Ct. 718, 728 (2016) (internal quotation marks and citation
omitted). “In contrast, rules that regulate only the manner of determining the
defendant’s culpability are procedural.” Schriro v. Summerlin, 542 U.S. 348,
353 (2004) (emphasis omitted).
The Court did not state whether Davis would apply retroactively. See
139 S. Ct. at 2354 (Kavanaugh, J., dissenting) (“And who knows whether the
ruling will be retroactive?”). 5 Nevertheless, the rule announced in Davis meets
the standard for a new substantive rule. The Court observed that § 924(c)(3)’s
residual clause “sweeps more broadly than the elements clause—potentially
reaching offenses, like burglary, that do not have violence as an element but
that arguably create a substantial risk of violence.” Id. at 2334 (internal
quotation marks and citation omitted). In other words, the residual clause
allows for punishment of certain offenses that the elements clause cannot
otherwise reach. Consequently, the residual clause’s invalidation narrows the
scope of conduct for which punishment is now available.

The government concedes that “Dimaya announced a new, substantive rule, and it
therefore applies retroactively on collateral review.”
5

6

38a

Case: 17-11078

Document: 00515138227

Page: 7

Date Filed: 09/30/2019

No. 17-11078
This conclusion is reinforced by Welch. There, the Court considered
whether Johnson—which invalidated the residual clause in the Armed Career
Criminal Act (“ACCA”), a provision whose text closely resembles that of
§ 924(c)(3)(B)—applied retroactively. Welch, 136 S. Ct. at 1265–68. Holding
that Johnson established a substantive rule with retroactive application, the
Court stated that “Johnson changed the substantive reach of the [ACCA],
altering the range of conduct or the class of persons that the [Act] punishes.”
Id. at 1265 (some alterations in original) (internal quotation marks and citation omitted). The rule announced in Davis operates in much the same way.
B.
Having decided that Davis announced a new rule of constitutional law
retroactively applicable on a first habeas petition, we consider the merits of
Reece’s petition.

Because Davis rendered 18 U.S.C. § 924(c)(3)’s residual

clause unconstitutional, Reece’s three firearms convictions predicated on conspiracy to commit bank robbery can be sustained only if conspiracy to commit
bank robbery can be defined as a COV under § 924(c)(3)’s elements clause. 6
Reece contends that his conspiracy-predicated § 924(c) convictions do not qualify as COVs under the elements clause because conspiracy to commit bank
robbery does not require “the use, threatened use, [or] attempted use of physical force.” 7 We agree.
When determining whether an offense is a COV under § 924(c)(3)’s
elements clause, we “look[] only to the statutory definitions—the elements—of

The COA issued to Reece framed the issue in broader terms, asking “whether a
conviction for a conspiracy to commit a [COV] itself qualifies as a [COV].” However, we need
only address the question as it relates to conspiracy to commit bank robbery.
6

The government does not directly address whether Reece’s convictions can be sustained under § 924(c)(3)’s elements clause.
7

7

39a

Case: 17-11078

Document: 00515138227

Page: 8

Date Filed: 09/30/2019

No. 17-11078
a defendant’s offense, and not to the particular facts underlying the convictions.” United States v. Buck, 847 F.3d 267, 274 (5th Cir.), cert. denied, 138 S.
Ct. 149 (2017). To convict of conspiracy under 18 U.S.C. § 371, the government
must prove three elements: “(1) an agreement between two or more persons to
pursue an unlawful objective; (2) the defendant’s knowledge of the unlawful
objective and voluntary agreement to join the conspiracy; and (3) an overt act
by one or more of the members of the conspiracy in furtherance of the objective
of the conspiracy.” United States v. Coleman, 609 F.3d 699, 704 (5th Cir. 2010).
Federal bank robbery constitutes a COV under § 924(c) “because the
least culpable conduct under that statute requires, at a minimum, an implicit
threat to use force.” United States v. Cadena, 728 F. App’x 381, 382 (5th Cir.),
cert. denied, 139 S. Ct. 436 (2018). But conspiracy is a crime distinct from the
crime that is the objective of the conspiracy. 8
To convict Reece of conspiracy to commit bank robbery, the government
was not required to prove any element regarding the use, attempted use, or
threatened use of physical force. Therefore, Reece’s conviction for conspiracy
to commit bank robbery cannot be a COV under § 924(c)(3)’s elements clause.
That the object crime of the conspiracy constituted a COV is irrelevant. We
reached similar conclusions in other conspiracy-predicated § 924(c) cases after
Johnson, Dimaya, and Davis. 9 Our sister circuits support this conclusion. 10

See United States v. Lewis, 907 F.3d 891, 895 (5th Cir. 2018), cert. denied, 139 S. Ct.
2776 (2019); accord Davis, 903 F.3d at 485 (“[C]onspiracy to commit an offense is merely an
agreement to commit an offense.”).
8

See, e.g., United States v. Jones, No. 18-30256, 2019 WL 3774078, at *2 (5th Cir.
Aug. 12, 2019) (per curiam) (ruling that “RICO conspiracy is not a § 924(c) [COV]”); Lewis,
907 F.3d at 895 (holding that conspiracy to commit Hobbs Act robbery did not qualify as a
COV under § 924(c)); Davis, 903 F.3d at 485 (same).
9

See, e.g., United States v. Simms, 914 F.3d 229, 233 (4th Cir. 2019) (“Simms’s
offense—conspiracy to commit Hobbs Act robbery—does not categorically qualify as a [COV]
under the elements-based categorical approach, as the United States now concedes.”).
10

8

40a

Case: 17-11078

Document: 00515138227

Page: 9

Date Filed: 09/30/2019

No. 17-11078
After the Supreme Court’s decision in Davis, Sealed Appellant 1 cannot
provide a basis to sustain Reece’s convictions. Sealed Appellant 1, 591 F.3d
at 820, stated that “[c]onspiracy to commit a [COV] also qualifies as a [COV].”
In so holding, Sealed Appellant 1 relied on United States v. Greer, 939 F.2d
1076 (5th Cir. 1991), on reh’g, 968 F.2d 433 (5th Cir. 1992) (en banc). Greer
held “that conspiring to deprive citizens of their civil rights . . . [was] a [COV]
within the meaning of section 924(c), because it create[d] ‘a substantial risk’ of
violence.” Id. at 1099 (emphasis added). This “substantial risk” language
appears only in § 924(c)(3)’s residual clause, not in the elements clause. Therefore, Sealed Appellant 1’s rule, insofar as it applies in this case, necessarily
relies on § 924(c)(3)’s now constitutionally infirm residual clause.
III.
Because Reece’s conspiracy-predicated § 924(c) convictions must be set
aside, we consider remedy. “In some cases, when we reverse convictions or
sentences on fewer than all counts, the aggregate sentence must be unbundled,
and the defendant must be resentenced on all counts.” United States v. Clark,
816 F.3d 350, 360 (5th Cir. 2016). Reece’s initial § 924(c) conviction allowed
for an enhanced sentence on his other § 924(c) offenses. 11 Therefore, we
VACATE the sentence and REMAND for resentencing. See Lewis, 907 F.3d
at 895. We leave it to the district court’s sound discretion to determine an
appropriate sentence. See Dean v. United States, 137 S. Ct. 1170, 1175 (2017);
Pepper v. United States, 562 U.S. 476, 487–89 (2011).

Reece was sentenced to 60 months on Count 2 and 300 months each on Counts 17,
21, and 23. Count 2’s predicate COV was conspiracy to commit bank robbery (Count 1).
11

9

41a

APPENDIX C

42a

Case: 20-10319

Document: 00515782806

Page: 1

Date Filed: 03/16/2021

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED

March 16, 2021

No. 20-10319
Summary Calendar

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Antonyo Reece,
Defendant—Appellant.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:08-CR-167-6
Before Haynes, Willett, and Ho, Circuit Judges.
Per Curiam:*
In 2009, a jury convicted Antonyo Reece of multiple counts, including
conspiracy to commit bank robbery, attempted bank robbery, bank robbery,
and using and carrying a firearm during and in relation to a crime of violence.
Since his trial, Reece has filed several appeals, and we have remanded his case

*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

43a

Case: 20-10319

Document: 00515782806

Page: 2

Date Filed: 03/16/2021

No. 20-10319

for resentencing twice. At the third and most recent sentencing proceeding,
the district court sentenced Reece above the Guidelines range to 395 months.
Reece now challenges this sentence, arguing that the district court’s
imposition of an upward variance of 200 months was procedurally and
substantively unreasonable. We disagree and thus AFFIRM the district
court’s sentence.
I
To provide context, we briefly describe the proceedings that led to this
appeal. In 2008, Reece and several others committed armed robbery and
planned robberies of several banks in the Dallas area. In 2009, a jury
convicted Reece of three counts of conspiracy to commit bank robbery, two
counts of attempted bank robbery, one count of bank robbery, and six counts
of using and carrying a firearm during and in relation to a crime of violence.
The district court sentenced Reece to 1,680 months in prison. On direct
appeal, we reversed the convictions for the two attempted robbery charges
and two associated firearm charges, affirmed the other convictions, and
remanded for resentencing. United States v. Duffey, 456 F. App’x 434, 445
(5th Cir. 2012). At resentencing, the district court sentenced Reece to 1,080
months.
Reece then moved to vacate his sentence under 28 U.S.C. § 2255,
arguing that his firearm convictions were unconstitutional because bank
robbery and conspiracy to commit bank robbery were no longer crimes of
violence under Johnson v. United States, 576 U.S. 591 (2015), and Sessions v.
Dimaya, 138 S. Ct. 1204 (2018). The district court denied the motion, but we
granted a Certificate of Appealability. While Reece’s appeal was pending, the
Supreme Court held that 18 U.S.C. § 924(c)(3)(B)’s definition of “crime of
violence” was unconstitutionally vague. United States v. Davis, 139 S. Ct.
2319, 2336 (2019). We therefore vacated three of Reece’s § 924(c) firearms

2
44a

Case: 20-10319

Document: 00515782806

Page: 3

Date Filed: 03/16/2021

No. 20-10319

convictions, which were predicated on his conspiracy convictions, and
remanded for resentencing. United States v. Reece, 938 F.3d 630, 636 (5th Cir.
2019).
At the resentencing proceeding, the only convictions remaining from
the jury trial were three counts of conspiracy to commit bank robbery, one
count of bank robbery, and one firearm conviction. The district court
assessed a within-Guidelines sentence of 60 months for each of the three
conspiracy convictions and 135 months for the bank robbery conviction, all to
run concurrently. By statute, the court was required to assess a minimum
consecutive sentence of 60 months for the firearm conviction (with a
statutory maximum sentence of life). The Government filed a motion for an
upward variance, which Reece opposed. At sentencing, the district court
added an upward variance of 200 months to the firearm conviction, resulting
in a consecutive sentence of 260 months and a total sentence of 395 months.
Reece now challenges the procedural and substantive reasonableness of this
sentence.
II
We review the reasonableness of a criminal sentence in two steps. Gall
v. United States, 552 U.S. 38, 51 (2007). We first determine whether the
district court committed procedural error. Id. Under this step, we review the
district court’s factual findings for clear error and its application of the
Sentencing Guidelines de novo. United States v. Diehl, 775 F.3d 714, 723 (5th
Cir. 2015). If no procedural error is present, we proceed to the second step

3
45a

Case: 20-10319

Document: 00515782806

Page: 4

Date Filed: 03/16/2021

No. 20-10319

and review the substantive reasonableness of the sentence for abuse of
discretion. Id.
III
A
We begin with the first step of the reasonableness analysis, addressing
Reece’s arguments that the district court procedurally erred. Reece first
argues that the district court selected a sentence based on three erroneous
facts: (1) Reece was “pretty aggravated” and “difficult to get along with” at
trial; (2) “[Reece] had a lot, and [Reece] committed several of them,” which
Reece reads as referring to multiple completed robberies when he was only
convicted of one; and (3) Reece was “planning on robbing [two] banks with
people that [he and his coconspirators] abducted from their homes.”
The district court did not commit procedural error in selecting a
sentence based on any of these facts because Reece misconstrues or takes the
court’s statements out of context. Regarding the first, the district court
admonished Reece and his co-defendants during trial for their “disruptive
behavior toward the Marshals” and for “giving the Marshals a hard time”
during trial, so the court did not err in saying that Reece was “pretty
aggravated” and “difficult to get along with.” Turning to the second, when
read in context, the district court’s statement, “[y]ou had a lot,” was a
reference to the gear and weapons that Reece and his codefendants used
during the robbery, not to the number of completed bank robberies, as Reece
claims. Finally, wire intercept evidence confirms that Reece participated in
conversations about the two bank robberies in which Reece and his
coconspirators planned to kidnap bank managers and force them to open
their respective banks’ vaults. Even if Reece did not participate in the details
of the kidnappings, the district court did not err in inferring that Reece
participated in those plans based upon the evidence at trial. See United States

4
46a

Case: 20-10319

Document: 00515782806

Page: 5

Date Filed: 03/16/2021

No. 20-10319

v. Caldwell, 448 F.3d 287, 290 (5th Cir. 2006). Because none of the factual
statements that Reece challenges were erroneous, the district court did not
commit procedural error when selecting Reece’s sentence based on those
facts.
Reece also claims that the district court procedurally erred by failing
to explain its reasons for imposing a 135-month sentence for his conspiracy
and robbery convictions when it imposed a 120-month sentence for those
convictions at his two prior sentencings. However, between Reece’s second
and third sentencings, the base offense level for these convictions increased
by five because Reece no longer faced separate firearm convictions
predicated on the conspiracy convictions. See U.S.S.G. § 2B3.1(b)(2)(C)
(adding five levels for possession of a firearm). Because Reece’s base offense
level at the third sentencing was higher than those at his two prior
sentencings, the district court did not err by failing to explain the higher, 135month sentence. Therefore, this challenge also fails.
B
Because we find no procedural error, we address Reece’s arguments
about the substantive reasonableness of his sentence. To do so, we consider
the totality of the circumstances, including the extent of the variance, to
determine if the § 3553(a) factors support the sentence. Gall, 552 U.S. at 50.
A sentence above the Guidelines range is substantively unreasonable if it
“(1) does not account for a factor that should have received significant
weight, (2) gives significant weight to an irrelevant or improper factor, or
(3) represents a clear error of judgment in balancing the sentencing factors.”
United States v. Warren, 720 F.3d 321, 332 (5th Cir. 2013). However, “[e]ven
a significant variance from the Guidelines does not constitute an abuse of
discretion if it is commensurate with the individualized, case-specific reasons
provided by the district court.” Diehl, 775 F.3d at 724.

5
47a

Case: 20-10319

Document: 00515782806

Page: 6

Date Filed: 03/16/2021

No. 20-10319

Reece asserts that the district court did not give sufficient weight to
his rehabilitation efforts or his non-leadership role in the robberies and placed
too much weight on his juvenile murder conviction. However, the sentencing
proceedings refute this claim. The district court read and considered Reece’s
sentencing memoranda, read letters and certificates of Reece’s postsentencing rehabilitation achievements, and heard argument about Reece’s
rehabilitation at sentencing. The court commended Reece for his
rehabilitation efforts but explained that it was “very, very concerned” that
he received a 30-year sentence for murder at age 14 and then, within a year
of being released on parole, Reece joined an organized group to rob banks.
The court also refused to discount the aggravated nature of Reece’s
completed robbery and conspiracy convictions. Thus, the court’s sentence
was not substantively unreasonable.
The district court also considered the § 3553(a) factors, providing
specific reasons consistent with these factors to support its determination
that a sentence above the Guidelines range was necessary to achieve the goals
of sentencing. Moreover, we have concluded that sentences with a similarly
significant upward variance were substantively reasonable. See, e.g., United
States v. Hebert, 813 F.3d 551, 562–63 (5th Cir. 2015); Diehl, 775 F.3d at 726;
United States v. Smith, 417 F.3d 483, 492–93. Because the totality of the
circumstances and the district court’s consideration and explanation of the
§ 3553(a) sentencing factors support the sentence imposed, Reece’s sentence
was substantively reasonable, and the court did not abuse its discretion.
Finally, Reece argues that the upward variance conflicts with the
Supreme Court’s Davis decision and Congress’s First Step Act. United
States v. Davis, 139 S. Ct. 2319 (2019); First Step Act of 2018, Pub. L. No.
115-391, 132 Stat. 5195. However, neither Davis nor the First Step Act forbid
the district court from imposing a sentence that the court believed was
reasonable in light of the sentencing factors, and Reece does not contend that

6
48a

Case: 20-10319

Document: 00515782806

Page: 7

Date Filed: 03/16/2021

No. 20-10319

the district court was legally constrained to select a within-guidelines
sentence. This argument thus fails.
For these reasons, we AFFIRM Reece’s sentence.

7
49a

APPENDIX D

50a

Case: 20-10319

Document: 00515782858

Page: 1

Date Filed: 03/16/2021

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

___________

FILED
March 16, 2021

No. 20-10319
Summary Calendar
___________

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Antonyo Reece,
Defendant—Appellant.
____________________________
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:08-CR-167-6
____________________________
Before Haynes, Willett, and Ho, Circuit Judges.
JUDGMENT
This cause was considered on the record on appeal and the briefs on
file.
IT IS ORDERED and ADJUDGED that the judgment of the
District Court is AFFIRMED.

51a

APPENDIX E

52a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

U.S. D~TRICT COURT

Page
1 of 75 PageID 192
NORTHERNDISTRJCTOFTEXAS

FILED
IN THE UNITED STATES DISTRIC COUR IJI f
FOR THE NORTHERN DISTRICT 0 TE
S
c1,ERJC,.___U.................,._..__C_OURT
DALLAS DIVISION

UNITED STATES OF AMERICA
v.
COREY DEYON DUFFEY (01)
a.k.a. "Keyno"
a.k.a. "Calvin Brown"
TONY R. HEWITT (02)
a.k.a. "PricelessT"
JARVIS DUPREE ROSS (03)
a.k.a. "Fifty"
a.k.a. "Dapree Dollars"
DAROBIE KENTA Y STENLINE (04)
a.k.a. "Fish"
a.k.a. "Dude White"
CHARLES RUNNELS (05)
a.k.a. "Junior"
ANTONYO REECE (06)
a.k.a. "Seven"
YOLANDA MCDOW (07)
a.k.a "Yo"

§
§
§
§
§
§
§
§
§
§
§
§
§
§
§
§
§
§
§
§
§

No. 3:08-CR-167-B
( Supersedes Indictment returned on June 3, 2008 )

SUPERSEDING INDICTMENT
The Grand Jury Charges:

Superseding Indictment -- Page 1

53a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 2 of 75 PageID 193

Count One
Conspiracy to Commit Bank Robbery
(Violation of 18 U.S.C. § 371)
On or about June 2, 2008, in the Dallas Division of the Northern District of Texas,

Corey Deyon Duffey, Tony R. Hewitt, Jarvis Dupree Ross, Darobie Kentay Stenline,
Charles Runnels, Antonyo Reece, and Yolanda McDow did knowingly, intentionally
and unlawfully combine, conspire, confederate, and agree together with other persons
known and unknown to the Grand Jury, to commit a certain offense against the United
States, to-wit: Bank Robbery, in violation of 18 U.S.C. § 2113(a) and (d).
OBJECTS OF THE CONSPIRACY
It was part of the conspiracy that Corey Deyon Duffey, Tony R. Hewitt, Jarvis

Dupree Ross, Darobie Kentay Stenline, Charles Runnels, Antonyo Reece, Yolanda
McDow and others discussed and planned with each other the robbery of the Regions
Bank at 2245 West Campbell Road, Garland, Texas. At all times during the course and
scope of the conspiracy, the deposits of the Regions Bank referenced in this indictment
were insured by the Federal Deposit Insurance Corporation.

Superseding Indictment -- Page 2

54a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 3 of 75 PageID 194

MANNER AND MEANS

It was part of the conspiracy that Corey Deyon Duffey, Tony R. Hewitt, Jarvis
Dupree Ross, Darobie Kentay Stenline, Charles Runnels, Antonyo Reece, Yolanda
McDow and others formulated a plan and agreement which, among other things,
included:
a. the acquisition of United States currency;
b. the use of weapons to intimidate bank employees and customers;
c. the selection of the bank to be robbed in Garland, Texas;
d. the acquisition and utilization of a stolen motor vehicle to commit the bank
robbery;
e. the role each robbery participant would play in the robbery; and
f. plans to avoid detection and apprehension by law enforcement.
OVERT ACTS IN FURTHERANCE OF THE CONSPIRACY
On or about June 2, 2008, Corey Deyon Duffey, Tony R. Hewitt, Jarvis Dupree

Ross, Darobie Kentay Stenline, Charles Runnels, Antonyo Reece, Yolanda McDow
and others traveled to the vicinity of the Regions Bank at 2245 West Campbell Road,
Garland, Texas, armed with firearms, and parked a stolen motor vehicle that they
intended to utilize nearby, with the express intent to rob the bank.
In violation of 18 U.S.C. § 371.

Superseding Indictment -- Page 3

55a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 4 of 75 PageID 195

- ii

Count Two
Using and Carrying a Firearm During and in
Relation to, and Possessing a Firearm in Furtherance of,
a Crime of Violence
(Violation of 18 U.S.C. § 924 (c)(l)(A)(i))
On or about June 2, 2008, in the Dallas Division of the Northern District of Texas,

Corey Deyon Duffey, Tony R. Hewitt, Jarvis Dupree Ross, Darobie Kentay Stenline,
Charles Runnels, Antonyo Reece, and Yolanda McDow, the defendants, during and in
relation to a crime of violence, namely conspiracy to commit bank robbery, in violation of
18 U.S.C. §§ 2113(a) and (d) and 18 U.S.C. § 371, as alleged in Count One of this
indictment, for which they may be prosecuted in a court of the United States, did
knowingly use and carry a firearm, to wit: a DPMS Black Panther Arms, Model A-15,
.223 caliber rifle, bearing serial number F089313; and a Ruger, Model P85, 9 millimeter
pistol, bearing serial number 30372143, and the defendants knowingly possessed said
firearm in furtherance of the commission of this offense.
In violation of 18 U.S.C. § 924(c)(l)(A)(i).

Superseding Indictment -- Page 4

56a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 5 of 75 PageID 196

Count Three
Attempted Bank Robbery
(Violation of 18 U.S.C. §§ 2113(a) and (d) and 18 U.S.C. § 2)
On or about June 2, 2008, in the Dallas Division of the Northern District of Texas,
Corey Deyon Duffey, Tony R. Hewitt, Jarvis Dupree Ross, Darobie Kentay Stenline,
Charles Runnels, Antonyo Reece, and Yolanda McDow, the defendants, aiding and
abetting one another, did knowingly and intentionally attempt to take, by force, violence
and intimidation, from the person and presence of an employee of the Regions Bank
located at 2245 West Campbell Road, Garland, Texas, United States currency belonging
to and in the care, custody, control, management and possession of Regions Bank, a bank,
the deposits of which were then insured by the Federal Deposit Insurance Corporation,
and the defendants, in attempting to commit aforesaid act, were armed with a dangerous
weapon, namely, a firearm, which they intended use to assault and put in jeopardy the
lives of bank employees and customers.
In violation of 18 U.S.C. §§ 2113(a) and (d) and 18 U.S.C. § 2.

Superseding Indictment -- Page 5

57a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 6 of 75 PageID 197

Count Four
Using and Carrying a Firearm During and in
Relation to, and Possessing a Firearm in Furtherance of,
a Crime of Violence
(Violation of 18 U.S.C. § 924(c)(l)(C)(i))
On or about June 2, 2008, in the Dallas Division of the Northern District of Texas,
Corey Deyon Duffey, Tony R. Hewitt, Jarvis Dupree Ross, Darobie Kentay Stenline,
Charles Runnels, Antonyo Reece, and Yolanda McDow, the defendants, during and in
relation to a crime of violence, namely attempted bank robbery, in violation of 18 U.S.C.

§§ 2113(a) and (d), as alleged in Count Three of this indictment, for which they may be
prosecuted in a court of the United States, did knowingly use and carry a firearm, to wit: a
Glock, Model 19, 9 millimeter pistol, bearing serial number LGE461; and a Taurus 9
millimeter pistol, bearing serial number TLC423310, and the defendants knowingly
possessed said firearm in furtherance of the commission of this offense.
In violation of 18 U.S.C. § 924(c)(l)(C)(i).

Superseding Indictment -- Page 6

58a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 7 of 75 PageID 198

Count Five
Felon in Possession of a Firearm
(Violation of 18 U.S.C. §§ 922(g)(l) and 924(a)(2))
On or about June 2, 2008, in the Dallas Division of the Northern District of Texas,
the defendant, Corey Deyon Duffey, having being convicted of a crime punishable by
imprisonment for a term exceeding one year, did knowingly and unlawfully possess in
and affecting interstate and foreign commerce a firearm, to wit: a DPMS Black Panther
Arms, Model A-15, .223 caliber rifle, bearing serial number F089313; a Mossberg 12
gauge shotgun (equipped with a collapsible stock, pistol grip, and flash suppressor),
bearing serial number R812616; and a Taurus 9 millimeter pistol, bearing serial number
TLC423310.
In violation of 18 U.S.C. §§ 922(g)(l) and 924(a)(2).

Superseding Indictment -- Page 7

59a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 8 of 75 PageID 199

Count Six
Felon in Possession of a Firearm
(Violation of 18 U.S.C. §§ 922(g)(l) and 924(a)(2))
On or about June 2, 2008, in the Dallas Division of the Northern District of Texas,
the defendant, Tony R. Hewitt, having being convicted of a crime punishable by
imprisonment for a term exceeding one year, did knowingly and unlawfully possess in
and affecting interstate and foreign commerce a firearm, to wit: a Glock, Model 19, 9
millimeter pistol, bearing serial number LGE46 l; and a Browning Hi-Power, .40 caliber
pistol, bearing serial number 2WFNV57052.
In violation of 18 U.S.C. §§ 922(g)(l) and 924(a)(2).

Superseding Indictment -- Page 8

60a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 9 of 75 PageID 200

Count Seven
Felon in Possession of a Firearm
(Violation of 18 U.S.C. §§ 922(g)(l) and 924(a)(2))
On or about June 2, 2008, in the Dallas Division of the Northern District of Texas,
the defendant, Jarvis Dupree Ross, having being convicted of a crime punishable by
imprisonment for a term exceeding one year, did knowingly and unlawfully possess in
and affecting interstate and foreign commerce a firearm, to wit: a Glock, Model 32, .357
caliber pistol, bearing serial number KZG 161.
In violation of 18 U.S.C. §§ 922(g)(l) and 924(a)(2).

Superseding Indictment -- Page 9

61a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 10 of 75 PageID 201

Count Eight
Felon in Possession of a Firearm
(Violation of 18 U.S.C. §§ 922(g)(l) and 924(a)(2))
On or about June 2, 2008, in the Dallas Division of the Northern District of Texas,
the defendant, Charles Runnels, having being convicted of a crime punishable by
imprisonment for a term exceeding one year, did knowingly and unlawfully possess in
and affecting interstate and foreign commerce a firearm, to wit: a Colt, Model MK4, .45
caliber pistol, bearing serial number FG07540.
In violation of 18 U.S.C. §§ 922(g)(l) and 924(a)(2).

Superseding Indictment -- Page 10

62a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 11 of 75 PageID 202

Count Nine
Assault on a Federal Officer
(Violation of 18 U.S.C. § 111)
On or about June 2, 2008, in the Dallas Division of the Northern District of Texas,
the defendant, Charles Runnels, knowingly, and by means and use of a dangerous
weapon, that is a motor vehicle, did forcibly assault, resist, oppose, impede, intimidate,
and interfere with Mark Marculec, a Task Force Officer for the Federal Bureau of
Investigation, who was engaged in and on account of the performance of his official
duties.
In violation of 18 U.S.C. § 111.

Superseding Indictment -- Page 11

63a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 12 of 75 PageID 203

Count Ten
Assault on a Federal Officer
(Violation of 18 U.S.C. § 111)
On or about June 2, 2008, in the Dallas Division of the Northern District of Texas,
the defendant, Charles Runnels, knowingly, and by means and use of a dangerous
weapon, that is a motor vehicle, did forcibly assault, resist, oppose, impede, intimidate,
and interfere with Armando Lopez, a Task Force Officer for the Federal Bureau of
Investigation, who was engaged in and on account of the performance of his official
duties.
In violation of 18 U.S.C. § 111.

Superseding Indictment -- Page 12

64a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 13 of 75 PageID 204

Count Eleven
Possession of a Firearm During in Furtherance of
a Crime of Violence
(Violation of 18 U.S.C. § 924(c)(l)(C)(i))
On or about June 2, 2008, in the Dallas Division of the Northern District of Texas,
the defendant, Charles Runnels, in furtherance of a crime of violence, namely assault on
a federal officer, in violation of 18 U.S.C. § 111, as alleged in Counts Nine and Ten of
this indictment, for which he may be prosecuted in a court of the United States, did
knowingly possess a firearm, to wit: a Colt, Model MK4, .45 caliber pistol, bearing serial
number FG07540.
In violation of 18 U.S.C. § 924(c)(l)(C)(i).

Superseding Indictment -- Page 13

65a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 14 of 75 PageID 205

Count Twelve
Kidnapping
(Violation of 18 U.S.C. § 1201(a)(l))
On or about June 2, 2008, in the Dallas Division of the Northern District of Texas
and elsewhere, the defendant, Jarvis Dupree Ross, did willfully and unlawfully seize,
confine, and inveigle T.M., the victim, for some purpose and benefit, and the defendant
did use an instrumentality of interstate and foreign commerce in committing or in
furtherance of the commission of this offense, to wit: a Glock, Model 32, .357 caliber
pistol, bearing serial number KZG 161.
In violation of 18 U.S.C. § 1201(a)(l).

Superseding Indictment -- Page 14

66a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 15 of 75 PageID 206

Count Thirteen
Using, Carrying and Brandishing a Firearm
During and in Relation to a Crime of Violence
(Violation of 18 U.S.C. § 924(c)(l)(C)(i))
On or about June 2, 2008, in the Dallas Division of the Northern District of Texas,
the defendant, Jarvis Dupree Ross, during and in relation to a crime of violence, namely
kidnapping, in violation of 18 U.S.C. § 120l(a)(l), as alleged in Count Twelve of this
indictment, for which he may be prosecuted in a court of the United States, did knowingly
use, carry, and brandish a firearm, to wit: a Glock, Model 32, .357 caliber pistol, bearing
serial number KZG 161.
In violation of 18 U.S.C. § 924(c)(l)(C)(i).

Superseding Indictment -- Page 15

67a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 16 of 75 PageID 207

Count Fourteen
Conspiracy to Commit Bank Robbery
(Violation of 18 U.S.C. § 371)
On or about May 2008, in the Dallas Division of the Northern District of Texas,

Corey Deyon Duffey, Tony R. Hewitt, Jarvis Dupree Ross, and Darobie Kentay
Stenline did knowingly, intentionally and unlawfully combine, conspire, confederate, and
agree together with other persons known and unknown to the Grand Jury, to commit a
certain offense against the United States, to-wit: Bank Robbery, in violation of 18 U.S.C.
§ 2113(a) and (d).
OBJECTS OF THE CONSPIRACY
It was part of the conspiracy that Corey Deyon Duffey, Tony R. Hewitt, Jarvis

Dupree Ross, Darobie Kentay Stenline and others discussed and planned with each
other the robbery of the Bank of America at 1431 Spring Valley Road, Richardson,
Texas. At all times during the course and scope of the conspiracy, the deposits of Bank
of America referenced in this indictment were insured by the Federal Deposit Insurance
Corporation.

Superseding Indictment -- Page 16

68a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 17 of 75 PageID 208

MANNER AND MEANS
It was part of the conspiracy that Corey Deyon Duffey, Tony R. Hewitt, Jarvis

Dupree Ross, Darobie Kentay Stenline and others formulated a plan and agreement
which, among other things, included:
a. the acquisition of United States currency;
b. the use of weapons and restraining devices to advance the robbery of the bank;
c. the selection of the bank to be robbed in Richardson, Texas;
d. the kidnapping of the bank manager of the bank;
e. the role each robbery participant would play in the robbery of the bank; and
f. plans to avoid detection and apprehension by law enforcement.
OVERT ACTS IN FURTHERANCE OF THE CONSPIRACY
On or about May 2008, Corey Deyon Duffey, Tony R. Hewitt, Jarvis Dupree

Ross, Darobie Kentay Stenline and others cased the Bank of America at 1431 Spring
Valley Road, Richardson, Texas, and obtained information about the manager of the
bank, with the express intent to kidnap the manager in order to further the planned bank
robbery.
In violation of 18 U.S.C. § 371.

Superseding Indictment -- Page 17

69a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 18 of 75 PageID 209

Count Fifteen
Conspiracy to Commit Bank Robbery
(Violation of 18 U.S.C. § 371)
On or about May 2008, in the Dallas Division of the Northern District of Texas,

Corey Deyon Duffey, Tony R. Hewitt, Jarvis Dupree Ross, and Darobie Kentay
Stenline did knowingly, intentionally and unlawfully combine, conspire, confederate, and
agree together with other persons known and unknown to the Grand Jury, to commit a
certain offense against the United States, to-wit: Bank Robbery, in violation of 18 U.S.C.

§ 2113(a) and (d).
OBJECTS OF THE CONSPIRACY
It was part of the conspiracy that Corey Deyon Duffey, Tony R. Hewitt, Jarvis

Dupree Ross, Darobie Kentay Stenline and others discussed and planned with each
other the robbery of the Bank of America at 534 Centennial Road, Richardson, Texas. At
all times during the course and scope of the conspiracy, the deposits of Bank of America
referenced in this indictment were insured by the Federal Deposit Insurance Corporation.

Superseding Indictment -- Page 18

70a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 19 of 75 PageID 210

MANNER AND MEANS
It was part of the conspiracy that Corey Deyon Duffey, Tony R. Hewitt, Jarvis

Dupree Ross, Darobie Kentay Stenline and others formulated a plan and agreement
which, among other things, included:
a. the acquisition of United States currency;
b. the use of weapons and restraining devices to advance the robbery of the bank;
c. the selection of the bank to be robbed in Richardson, Texas;
d. the kidnapping of the bank manager of the bank;
e. the role each robbery participant would play in the robbery of the bank; and
f. plans to avoid detection and apprehension by law enforcement.
OVERT ACTS IN FURTHERANCE OF THE CONSPIRACY
On or about May 2008, Corey Deyon Duffey, Tony R. Hewitt, Jarvis Dupree

Ross, Darobie Kentay Stenline and others cased the Bank of America at 534 Centennial
Road, Richardson, Texas, and obtained information about the manager of the bank, with
the express intent to kidnap the manager in order to further the planned bank robbery.
In violation of 18 U.S.C. § 371.

Superseding Indictment -- Page 19

71a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 20 of 75 PageID 211

Count Sixteen
Conspiracy to Commit Bank Robbery
(Violation of 18 U.S.C. § 371)
On or about May 16, 2008, in the Forth Worth Division of the Northern District of
Texas, Corey Deyon Duffey, Tony R. Hewitt, Jarvis Dupree Ross, Darobie Kentay

Stenline, Charles Runnels, Antonyo Reece, and Yolanda McDow did knowingly,
intentionally and unlawfully combine, conspire, confederate, and agree together with
other persons known and unknown to the Grand Jury, to commit a certain offense against
the United States, to-wit: Bank Robbery, in violation of 18 U.S.C. § 2113(a) and (d).
OBJECTS OF THE CONSPIRACY
It was part of the conspiracy that Corey Deyon Duffey, Tony R. Hewitt, Jarvis

Dupree Ross, Darobie Kentay Stenline, Charles Runnels, Antonyo Reece, Yolanda
McDow and others discussed and planned with each other the robbery of the Bank of
America at 4751 South Hulen Road, Fort Worth, Texas. At all times during the course
and scope of the conspiracy, the deposits of Bank of America referenced in this
indictment were insured by the Federal Deposit Insurance Corporation.

Superseding Indictment -- Page 20

72a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 21 of 75 PageID 212

MANNER AND MEANS
It was part of the conspiracy that Corey Deyon Duffey, Tony R. Hewitt, Jarvis
Dupree Ross, Darobie Kentay Stenline, Charles Runnels, Antonyo Reece, Yolanda
McDow and others formulated a plan and agreement which, among other things,
included:
a. the acquisition of United States currency;
b. the use of weapons to intimidate bank employees and customers;
c. the selection of the bank to be robbed in Fort Worth, Texas;
d. the acquisition and utilization of a stolen motor vehicle to commit the bank
robbery;
e. the role each robbery participant would play in the robbery; and
f. plans to avoid detection and apprehension by law enforcement.
OVERT ACTS IN FURTHERANCE OF THE CONSPIRACY
On or about May 16, 2008, Corey Deyon Duffey, Tony R. Hewitt, Jarvis
Dupree Ross, Darobie Kentay Stenline, Charles Runnels, Antonyo Reece, Yolanda
McDow and others traveled to the vicinity of the Bank of America at 4 7 51 South Hulen
Road, Fort Worth, Texas, armed with firearms, and parked a stolen motor vehicle that
they intended to utilize nearby, with the express intent to rob the bank.
In violation of 18 U.S.C. § 371.

Superseding Indictment -- Page 21

73a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 22 of 75 PageID 213

Count Seventeen
Using and Carrying a Firearm During and in
Relation to, and Possessing a Firearm in Furtherance of,
a Crime of Violence
(Violation of 18 U.S.C. § 924(c)(l)(C)(i))
On or about May 16, 2008, in the Fort Worth Division of the Northern District of
Texas, Corey Deyon Duffey, Tony R. Hewitt, Jarvis Dupree Ross, Darobie Kentay
Stenline, Charles Runnels, Antonyo Reece, and Yolanda McDow, the defendants,
during and in relation to a crime of violence, namely conspiracy to commit bank robbery,
in violation of 18 U.S.C. §§ 2113(a) and (d) and 18 U.S.C. § 371, as alleged in Count
Sixteen of this indictment, for which they may be prosecuted in a court of the United
States, did knowingly use and carry a firearm, and the defendants knowingly possessed
said firearm in furtherance of the commission of this offense.
In violation of 18 U.S.C. § 924(c)(l)(C)(i).

Superseding Indictment -- Page 22

74a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 23 of 75 PageID 214

Count Eighteen
Attempted Bank Robbery
(Violation of 18 U.S.C. §§ 2113(a) and (d) and 18 U.S.C. § 2)
On or about May 16, 2008, in the Fort Worth Division of the Northern District of
Texas, Corey Deyon Duffey, Tony R. Hewitt, Jarvis Dupree Ross, Darobie Kentay

Stenline, Charles Runnels, Antonyo Reece, and Yolanda McDow, the defendants,
aiding and abetting one another, did knowingly and intentionally attempt to take, by force,
violence and intimidation, from the person and presence of an employee of the Bank of
America at 4751 South Hulen Road, Fort Worth, Texas, United States currency belonging
to and in the care, custody, control, management and possession of Bank of America, a
bank, the deposits of which were then insured by the Federal Deposit Insurance
Corporation, and the defendants, in attempting to commit aforesaid act, were armed with
a dangerous weapon, namely, a firearm, which they intended use to assault and put in
jeopardy the lives of bank employees and customers.
In violation of 18 U.S.C. §§ 2113(a) and (d) and 18 U.S.C. § 2.

Superseding Indictment -- Page 23

75a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 24 of 75 PageID 215

Count Nineteen
Using and Carrying a Firearm During and in
Relation to, and Possessing a Firearm in Furtherance of,
a Crime of Violence
(Violation of 18 U.S.C. § 924(c)(l)(C)(i))
On or about May 16, 2008, in the Fort Worth Division of the Northern District of
Texas, Corey Deyon Duffey, Tony R. Hewitt, Jarvis Dupree Ross, Darobie Kentay

Stenline, Charles Runnels, Antonyo Reece, and Yolanda McDow, the defendants,
during and in relation to a crime of violence, namely attempted bank robbery, in violation
of 18 U.S.C. §§ 2113(a) and (d), as alleged in Count Eighteen of this indictment, for
which they may be prosecuted in a court of the United States, did knowingly use and
carry a firearm, and the defendants knowingly possessed said firearm in furtherance of the
commission of this offense.
In violation of 18 U.S.C. § 924(c)(l)(C)(i).

Superseding Indictment -- Page 24

76a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 25 of 75 PageID 216

Count Twenty
Conspiracy to Commit Bank Robbery
(Violation of 18 U.S.C. § 371)
On or about April 24, 2008, in the Dallas Division of the Northern District of
Texas, Corey Deyon Duffey, Tony R. Hewitt, Jarvis Dupree Ross, Darobie Kentay

Stenline, Charles Runnels, Antonyo Reece, and Yolanda McDow did knowingly,
intentionally and unlawfully combine, conspire, confederate, and agree together with
other persons known and unknown to the Grand Jury, to commit a certain offense against
the United States, to-wit: Bank Robbery, in violation of 18 U.S.C. § 2113(a) and (d).
OBJECTS OF THE CONSPIRACY
It was part of the conspiracy that Corey Deyon Duffey, Tony R. Hewitt, Jarvis

Dupree Ross, Darobie Kentay Stenline, Charles Runnels, Antonyo Reece, Yolanda
McDow and others discussed and planned with each other the robbery of the Bank of
America at 7300 North MacArthur Boulevard, Irving, Texas. At all times during the
course and scope of the conspiracy, the deposits of Bank of America referenced in this
indictment were insured by the Federal Deposit Insurance Corporation.

Superseding Indictment -- Page 25

77a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 26 of 75 PageID 217

MANNER AND MEANS
It was part of the conspiracy that Corey Deyon Duffey, Tony R. Hewitt, Jarvis

Dupree Ross, Darobie Kentay Stenline, Charles Runnels, Antonyo Reece, Yolanda
McDow and others formulated a plan and agreement which, among other things,
included:
a. the acquisition of United States currency;
b. the use of weapons to intimidate bank employees and customers;
c. the selection of the bank to be robbed in Irving, Texas;
d. the acquisition and utilization of a stolen motor vehicle to commit the bank
robbery;
e. the role each robbery participant would play in the robbery; and
f. plans to avoid detection and apprehension by law enforcement.
OVERT ACTS IN FURTHERANCE OF THE CONSPIRACY
On or about April 24, 2008, Corey Deyon Duffey, Tony R. Hewitt, Jarvis

Dupree Ross, Darobie Kentay Stenline, Charles Runnels, Antonyo Reece, Yolanda
McDow and others traveled to the vicinity of Bank of America at 7300 North MacArthur
Boulevard, Irving, Texas, armed with firearms, and robbed the bank at gunpoint.
In violation of 18 U.S.C. § 371.

Superseding Indictment -- Page 26

78a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 27 of 75 PageID 218

Count Twenty-One
Using and Carrying a Firearm During and in
Relation to, and Possessing a Firearm in Furtherance of,
a Crime of Violence
(Violation of 18 U.S.C. § 924(c)(l)(C)(i))
On or about April 24, 2008, in the Dallas Division of the Northern District of
Texas, Corey Deyon Duffey, Tony R. Hewitt, Jarvis Dupree Ross, Darobie Kentay

Stenline, Charles Runnels, Antonyo Reece, and Yolanda McDow, the defendants,
during and in relation to a crime of violence, namely conspiracy to commit bank robbery,
in violation of 18 U.S.C. §§ 2113(a) and (d) and 18 U.S.C. § 371, as alleged in Count
Twenty of this indictment, for which they may be prosecuted in a court of the United
States, did knowingly use and carry a firearm, and the defendants knowingly possessed
said firearm in furtherance of the commission of this offense.
In violation of 18 U.S.C. § 924(c)(l)(C)(i).

Superseding Indictment - Page 27

79a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 28 of 75 PageID 219

Count Twenty-Two
Bank Robbery
(Violation of 18 U.S.C. §§ 2113(a) and (d) and 18 U.S.C. § 2)
On or about April 24, 2008, in the Dallas Division of the Northern District of
Texas, Corey Deyon Duffey, Tony R. Hewitt, Jarvis Dupree Ross, Darobie Kentay

Stenline, Charles Runnels, Antonyo Reece, and Yolanda McDow, the defendants,
aiding and abetting one another, did knowingly and intentionally take, by force, violence
and intimidation, from the person and presence of an employee of the Bank of America at
7300 North MacArthur Boulevard, Irving, Texas, United States currency belonging to and
in the care, custody, control, management and possession of Bank of America, a bank, the
deposits of which were then insured by the Federal Deposit Insurance Corporation, and
the defendants, in committing aforesaid act, did assault and put in jeopardy the lives of
bank employees and customers by use of a dangerous weapon, namely, a firearm.
In violation of 18 U.S.C. §§ 2113(a) and (d) and 18 U.S.C. § 2.

Superseding Indictment -- Page 28

80a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 29 of 75 PageID 220

Count Twenty-Three
Using and Carrying a Firearm During and in
Relation to, and Possessing a Firearm in Furtherance of,
a Crime of Violence
(Violation of 18 U.S.C. § 924(c)(l)(C)(i))
On or about April 24, 2008, in the Dallas Division of the Northern District of
Texas, Corey Deyon Duffey, Tony R. Hewitt, Jarvis Dupree Ross, Darobie Kentay

Stenline, Charles Runnels, Antonyo Reece, and Yolanda McDow, the defendants,
during and in relation to a crime of violence, namely bank robbery, in violation of 18
U.S.C. §§ 2113(a) and (d), as alleged in Count Twenty-Two of this indictment, for which
they may be prosecuted in a court of the United States, did knowingly use and carry a
firearm, and the defendants knowingly possessed said firearm in furtherance of the
commission of this offense.
In violation of 18 U.S.C. § 924(c)(l)(C)(i).

Superseding Indictment -- Page 29

81a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 30 of 75 PageID 221

Count Twenty-Four
Conspiracy to Commit Bank Robbery
(Violation of 18 U.S.C. § 371)
On or about March 28, 2008, in the Dallas Division of the Northern District of
Texas, Corey Deyon Duffey, Tony R. Hewitt, Jarvis Dupree Ross, Darobie Kentay

Stenline, Charles Runnels, and Yolanda McDow did knowingly, intentionally and
unlawfully combine, conspire, confederate, and agree together with other persons known
and unknown to the Grand Jury, to commit a certain offense against the United States, towit: Bank Robbery, in violation of 18 U.S.C. § 2113(a) and (d).
OBJECTS OF THE CONSPIRACY
It was part of the conspiracy that Corey Deyon Duffey, Tony R. Hewitt, Jarvis

Dupree Ross, Darobie Kentay Stenline, Charles Runnels, Yolanda McDow and others
discussed and planned with each other the robbery of the State Bank of Texas at 517 West
Interstate 30, Garland, Texas. At all times during the course and scope of the conspiracy,
the deposits of State Bank of Texas referenced in this indictment were insured by the
Federal Deposit Insurance Corporation.

Superseding Indictment -- Page 30

82a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 31 of 75 PageID 222

MANNER AND MEANS
It was part of the conspiracy that Corey Deyon Duffey, Tony R. Hewitt, Jarvis

Dupree Ross, Darobie Kentay Stenline, Charles Runnels, Yolanda McDow and others
formulated a plan and agreement which, among other things, included:
a. the acquisition of United States currency;
b. the use of weapons to intimidate bank employees and customers;
c. the selection of the bank to be robbed in Garland, Texas;
d. the acquisition and utilization of a stolen motor vehicle to commit the bank
robbery;
e. the role each robbery participant would play in the robbery; and
f. plans to avoid detection and apprehension by law enforcement.
OVERT ACTS IN FURTHERANCE OF THE CONSPIRACY
On or about March 28, 2008, Corey Deyon Duffey, Tony R. Hewitt, Jarvis

Dupree Ross, Darobie Kentay Stenline, Charles Runnels, Yolanda McDow and others
traveled to the vicinity of the State Bank of Texas at 517 West Interstate 30, Garland,
Texas, armed with firearms, and robbed the bank at gunpoint.
In violation of 18 U.S.C. § 371.

Superseding Indictment -- Page 31

83a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 32 of 75 PageID 223

Count Twenty-Five
Using and Carrying a Firearm During and in
Relation to, and Possessing a Firearm in Furtherance of,
a Crime of Violence
(Violation of 18 U.S.C. § 924(c)(l)(C)(i))
On or about March 28, 2008, in the Dallas Division of the Northern District of
Texas, Corey Deyon Duffey, Tony R. Hewitt, Jarvis Dupree Ross, Darobie Kentay

Stenline, Charles Runnels, and Yolanda McDow, the defendants, during and in relation
to a crime of violence, namely conspiracy to commit bank robbery, in violation of 18
U.S.C. §§ 2113(a) and (d) and 18 U.S.C. § 371, as alleged in Count Twenty-Four of this
indictment, for which they may be prosecuted in a court of the United States, did
knowingly use and carry a firearm, and the defendants knowingly possessed said firearm
in furtherance of the commission of this offense.
In violation of 18 U.S.C. § 924(c)(l)(C)(i).

Superseding Indictment - Page 32

84a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 33 of 75 PageID 224

Count Twenty-Six
Bank Robbery
(Violation of 18 U.S.C. §§ 2113(a) and (d) and 18 U.S.C. § 2)
On or about March 28, 2008, in the Dallas Division of the Northern District of
Texas, Corey Deyon Duffey, Tony R. Hewitt, Jarvis Dupree Ross, Darobie Kentay

Stenline, Charles Runnels, and Yolanda McDow, the defendants, aiding and abetting
one another, did knowingly and intentionally take, by force, violence and intimidation,
from the person and presence of an employee of the State Bank of Texas at 517 West
Interstate 30, Garland, Texas, United States currency belonging to and in the care,
custody, control, management and possession of State Bank of Texas, a bank, the deposits
of which were then insured by the Federal Deposit Insurance Corporation, and the
defendants, in committing aforesaid act, did assault and put in jeopardy the lives of bank
employees and customers by use of a dangerous weapon, namely, a firearm.
In violation of 18 U.S.C. §§ 2113(a) and (d) and 18 U.S.C. § 2.

Superseding Indictment -- Page 33

85a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 34 of 75 PageID 225

Count Twenty-Seven
Using and Carrying a Firearm During and in
Relation to, and Possessing a Firearm in Furtherance of,
a Crime of Violence
(Violation of 18 U.S.C. § 924(c)(l)(C)(i))
On or about March 28, 2008, in the Dallas Division of the Northern District of
Texas, Corey Deyon Duffey, Tony R. Hewitt, Jarvis Dupree Ross, Darobie Kentay

Stenline, Charles Runnels, and Yolanda McDow, the defendants, during and in relation
to a crime of violence, namely bank robbery, in violation of 18 U.S.C. §§ 2113(a) and (d),
as alleged in Count Twenty-Six of this indictment, for which they may be prosecuted in a
court of the United States, did knowingly use and carry a firearm, and the defendants
knowingly possessed said firearm in furtherance of the commission of this offense.
In violation of 18 U.S.C. § 924(c)(l)(C)(i).

Superseding Indictment -- Page 34

86a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 35 of 75 PageID 226

Count Twenty-Eight
Conspiracy to Commit Bank Robbery
(Violation of 18 U.S.C. § 371)
On or about March 28, 2008, in the Dallas Division of the Northern District of
Texas, and elsewhere, Corey Deyon Duffey, Tony R. Hewitt, Jarvis Dupree Ross,

Darobie Kentay Stenline, Charles Runnels, and Yolanda McDow did knowingly,
intentionally and unlawfully combine, conspire, confederate, and agree together with
other persons known and unknown to the Grand Jury, to commit a certain offense against
the United States, to-wit: Bank Robbery, in violation of 18 U.S.C. § 2113(a) and (d).
OBJECTS OF THE CONSPIRACY
It was part of the conspiracy that Corey Deyon Duffey, Tony R. Hewitt, Jarvis

Dupree Ross, Darobie Kentay Stenline, Charles Runnels, Yolanda McDow and others
discussed and planned with each other the robbery of the Century Bank at 3015 Frankford
Road, Dallas, Texas. At all times during the course and scope of the conspiracy, the
deposits of Century Bank referenced in this indictment were insured by the Federal
Deposit Insurance Corporation.

Superseding Indictment - Page 35

87a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 36 of 75 PageID 227

MANNER AND MEANS

It was part of the conspiracy that Corey Deyon Duffey, Tony R. Hewitt, Jarvis
Dupree Ross, Darobie Kentay Stenline, Charles Runnels, Yolanda McDow and others
formulated a plan and agreement which, among other things, included:
a. the acquisition of United States currency;
b. the use of weapons to intimidate bank employees and customers;
c. the selection of the bank to be robbed in Dallas, Texas;
d. the acquisition and utilization of a stolen motor vehicle to commit the bank
robbery;
e. the role each robbery participant would play in the robbery; and
f. plans to avoid detection and apprehension by law enforcement.
OVERT ACTS IN FURTHERANCE OF THE CONSPIRACY
On or about March 28, 2008, Corey Deyon Duffey, Tony R. Hewitt, Jarvis

Dupree Ross, Darobie Kentay Stenline, Charles Runnels, Yolanda McDow and others
traveled to the vicinity of the Century Bank at 3015 Frankford Road, Dallas, Texas,
armed with firearms, and robbed the bank at gunpoint.
In violation of 18 U.S.C. § 371.

Superseding Indictment -- Page 36

88a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 37 of 75 PageID 228

Count Twenty-Nine
Using and Carrying a Firearm During and in
Relation to, and Possessing a Firearm in Furtherance of,
a Crime of Violence
(Violation of 18 U.S.C. § 924(c)(l)(C)(i))
On or about March 28, 2008, in the Dallas Division of the Northern District of
Texas, and elsewhere, Corey Deyon Duffey, Tony R. Hewitt, Jarvis Dupree Ross,

Darobie Kentay Stenline, Charles Runnels, and Yolanda McDow, the defendants,
during and in relation to a crime of violence, namely conspiracy to commit bank robbery,
in violation of 18 U.S.C. §§ 2113(a) and (d) and 18 U.S.C. § 371, as alleged in Count
Twenty-Eight of this indictment, for which they may be prosecuted in a court of the
United States, did knowingly use and carry a firearm, and the defendants knowingly
possessed said firearm in furtherance of the commission of this offense.
In violation of 18 U.S.C. § 924(c)(l)(C)(i).

Superseding Indictment -- Page 37

89a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 38 of 75 PageID 229

Count Thirty
Bank Robbery
(Violation of 18 U.S.C. §§ 2113(a) and (d) and 18 U.S.C. § 2)
On or about March 28, 2008, in the Dallas Division of the Northern District of
Texas, and elsewhere, Corey Deyon Duffey, Tony R. Hewitt, Jarvis Dupree Ross,

Darobie Kentay Stenline, Charles Runnels, and Yolanda McDow, the defendants,
aiding and abetting one another, did knowingly and intentionally take, by force, violence
and intimidation, from the person and presence of an employee of the Century Bank at
3015 Frankford Road, Dallas, Texas, United States currency belonging to and in the care,
custody, control, management and possession of Century Bank, a bank, the deposits of
which were then insured by the Federal Deposit Insurance Corporation, and the
defendants, in committing aforesaid act, did assault and put in jeopardy the lives of bank
employees and customers by use of a dangerous weapon, namely, a firearm.
In violation of 18 U.S.C. §§ 2113(a) and (d) and 18 U.S.C. § 2.

Superseding Indictment -- Page 38

90a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 39 of 75 PageID 230

Count Thirty-One
Using and Carrying a Firearm During and in
Relation to, and Possessing a Firearm in Furtherance of,
a Crime of Violence
(Violation of 18 U.S.C. § 924(c)(l)(C)(i))
On or about March 28, 2008, in the Dallas Division of the Northern District of
Texas, and elsewhere, Corey Deyon Duffey, Tony R. Hewitt, Jarvis Dupree Ross,
Darobie Kentay Stenline, Charles Runnels, and Yolanda McDow, the defendants,
during and in relation to a crime of violence, namely bank robbery, in violation of 18
U.S.C. §§ 2113(a) and (d), as alleged in Count Thirty of this indictment, for which they
may be prosecuted in a court of the United States, did knowingly use and carry a firearm,
and the defendants knowingly possessed said firearm in furtherance of the commission of
this offense.
In violation of 18 U.S.C. § 924(c)(l)(C)(i).

Superseding Indictment -- Page 39

91a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 40 of 75 PageID 231

Count Thirty-Two
Conspiracy to Commit Bank Robbery
(Violation of 18 U.S.C. § 371)
On or about February 1, 2008, in the Dallas Division of the Northern District of
Texas, Corey Deyon Duffey, Tony R. Hewitt, Darobie Kentay Stenline, Charles

Runnels, and Yolanda McDow did knowingly, intentionally and unlawfully combine,
conspire, confederate, and agree together with other persons known and unknown to the
Grand Jury, to commit a certain offense against the United States, to-wit: Bank Robbery,
in violation of 18 U.S.C. § 2113(a) and (d).
OBJECTS OF THE CONSPIRACY
It was part of the conspiracy that Corey Deyon Duffey, Tony R. Hewitt, Darobie

Kentay Stenline, Charles Runnels, Yolanda McDow and others discussed and planned
with each other the robbery of the Comerica Bank at 1483 North Hampton Road, Desoto,
Texas. At all times during the course and scope of the conspiracy, the deposits of
Comerica Bank referenced in this indictment were insured by the Federal Deposit
Insurance Corporation.

Superseding Indictment -- Page 40

92a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 41 of 75 PageID 232

MANNER AND MEANS
It was part of the conspiracy that Corey Deyon Duffey, Tony R. Hewitt, Darobie

Kentay Stenline, Charles Runnels, Yolanda McDow and others formulated a plan and
agreement which, among other things, included:
a. the acquisition of United States currency;
b. the use of weapons to intimidate bank employees and customers;
c. the selection of the bank to be robbed in Desoto, Texas;
d. the acquisition and utilization of a stolen motor vehicle to commit the bank
robbery;
e. the role each robbery participant would play in the robbery; and
f. plans to avoid detection and apprehension by law enforcement.
OVERT ACTS IN FURTHERANCE OF THE CONSPIRACY
On or about February 1, 2008, Corey Deyon Duffey, Tony R. Hewitt, Darobie

Kentay Stenline, Charles Runnels, Yolanda McDow and others traveled to the vicinity
of the Comerica Bank at 1483 North Hampton Road, Desoto, Texas, armed with firearms,
and robbed the bank at gunpoint.
In violation of 18 U.S.C. § 371.

Superseding Indictment -- Page 41

93a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 42 of 75 PageID 233

Count Thirty-Three
Using and Carrying a Firearm During and in
Relation to, and Possessing a Firearm in Furtherance of,
a Crime of Violence
(Violation of 18 U.S.C. § 924(c)(l)(C)(i))
On or about February 1, 2008, in the Dallas Division of the Northern District of
Texas, Corey Deyon Duffey, Tony R. Hewitt, Darobie Kentay Stenline, Charles

Runnels, and Yolanda McDow, the defendants, during and in relation to a crime of
violence, namely conspiracy to commit bank robbery, in violation of 18 U.S.C. §§
2113(a) and (d) and 18 U.S.C. § 371, as alleged in Count Thirty-Two of this indictment,
for which they may be prosecuted in a court of the United States, did knowingly use and
carry a firearm, and the defendants knowingly possessed said firearm in furtherance of the
commission of this offense.
In violation of 18 U.S.C. § 924(c)(l)(C)(i).

Superseding Indictment -- Page 42

94a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 43 of 75 PageID 234

Count Thirty-Four
Bank Robbery
(Violation of 18 U.S.C. §§ 2113(a) and (d) and 18 U.S.C. § 2)
On or about February 1, 2008, in the Dallas Division of the Northern District of
Texas, Corey Deyon Duffey, Tony R. Hewitt, Darobie Kentay Stenline, Charles

Runnels, and Yolanda McDow, the defendants, aiding and abetting one another, did
knowingly and intentionally take, by force, violence and intimidation, from the person
and presence of an employee of the Comerica Bank at 1483 North Hampton Road,
Desoto, Texas, United States currency belonging to and in the care, custody, control,
management and possession of Comerica Bank, a bank, the deposits of which were then
insured by the Federal Deposit Insurance Corporation, and the defendants, in committing
aforesaid act, did assault and put in jeopardy the lives of bank employees and customers
by use of a dangerous weapon, namely, a firearm.
In violation of 18 U.S.C. §§ 2113(a) and (d) and 18 U.S.C. § 2.

Superseding Indictment -- Page 43

95a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 44 of 75 PageID 235

Count Thirty-Five
Using and Carrying a Firearm During and in
Relation to, and Possessing a Firearm in Furtherance of,
a Crime of Violence
(Violation of 18 U.S.C. § 924 (c)(l)(C)(i))
On or about February 1, 2008, in the Dallas Division of the Northern District of
Texas, Corey Deyon Duffey, Tony R. Hewitt, Darobie Kentay Stenline, Charles

Runnels, and Yolanda McDow, the defendants, during and in relation to a crime of
violence, namely bank robbery, in violation of 18 U.S.C. §§ 2113(a) and (d), as alleged in
Count Thirty-Four of this indictment, for which they may be prosecuted in a court of the
United States, did knowingly use and carry a firearm, and the defendants knowingly
possessed said firearm in furtherance of the commission of this offense.
In violation of 18 U.S.C. § 924(c)(l)(C)(i).

Superseding Indictment -- Page 44

96a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 45 of 75 PageID 236

Count Thirty-Six
Conspiracy to Commit Bank Robbery
(Violation of 18 U.S.C. § 371)
On or about January 28, 2008, in the Dallas Division of the Northern District of
Texas, Corey Deyon Duffey, Tony R. Hewitt, Jarvis Dupree Ross, Darobie Kentay

Stenline, and Charles Runnels did knowingly, intentionally and unlawfully combine,
conspire, confederate, and agree together with other persons known and unknown to the
Grand Jury, to commit a certain offense against the United States, to-wit: Bank Robbery,
in violation of 18 U.S.C. § 2113(a) and (d).
OBJECTS OF THE CONSPIRACY
It was part of the conspiracy that Corey Deyon Duffey, Tony R. Hewitt, Jarvis

Dupree Ross, Darobie Kentay Stenline, Charles Runnels and others discussed and
planned with each other the robbery of the Citi Bank at 2720 Beltline Road, Garland,
Texas. At all times during the course and scope of the conspiracy, the deposits of Citi
Bank referenced in this indictment were insured by the Federal Deposit Insurance
Corporation.

Superseding Indictment -- Page 45

97a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 46 of 75 PageID 237

MANNER AND MEANS

It was part of the conspiracy that Corey Deyon Duffey, Tony R. Hewitt, Jarvis
Dupree Ross, Darobie Kentay Stenline, Charles Runnels and others formulated a plan
and agreement which, among other things, included:
a. the acquisition of United States currency;
b. the use of weapons to intimidate bank employees and customers;
c. the selection of the bank to be robbed in Garland, Texas;

d. the acquisition and utilization of a stolen motor vehicle to commit the bank
robbery;
e. the role each robbery participant would play in the robbery; and
f. plans to avoid detection and apprehension by law enforcement.
OVERT ACTS IN FURTHERANCE OF THE CONSPIRACY
On or about January 28, 2008, Corey Deyon Duffey, Tony R. Hewitt, Jarvis

Dupree Ross, Darobie Kentay Stenline, Charles Runnels and others traveled to the
vicinity of the Citi Bank at 2720 Beltline Road, Garland, Texas, armed with firearms, and
robbed the bank at gunpoint.
In violation of 18 U.S.C. § 371.

Superseding Indictment -- Page 46

98a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 47 of 75 PageID 238

Count Thirty-Seven
Using and Carrying a Firearm During and in
Relation to, and Possessing a Firearm in Furtherance of,
a Crime of Violence
(Violation of 18 U.S.C. § 924(c)(l)(C)(i))
On or about January 28, 2008, in the Dallas Division of the Northern District of
Texas, Corey Deyon Duffey, Tony R. Hewitt, Jarvis Dupree Ross, Darobie Kentay
Stenline, and Charles Runnels, the defendants, during and in relation to a crime of
violence, namely conspiracy to commit bank robbery, in violation of 18 U.S.C. §§
2113(a) and (d) and 18 U.S.C. § 371, as alleged in Count Thirty-Six of this indictment,
for which they may be prosecuted in a court of the United States, did knowingly use and
carry a firearm, and the defendants knowingly possessed said firearm in furtherance of the
commission of this offense.
In violation of 18 U.S.C. § 924(c)(l)(C)(i).

Superseding Indictment -- Page 47

99a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 48 of 75 PageID 239

Count Thirty-Eight
Bank Robbery
(Violation of 18 U.S.C. §§ 2113(a) and (d) and 18 U.S.C. § 2)
On or about January 28, 2008, in the Dallas Division of the Northern District of
Texas, Corey Deyon Duffey, Tony R. Hewitt, Jarvis Dupree Ross, Darobie Kentay

Stenline, and Charles Runnels, the defendants, aiding and abetting one another, did
knowingly and intentionally take, by force, violence and intimidation, from the person
and presence of an employee of the Citi Bank at 2720 Beltline Road, Garland, Texas,
United States currency belonging to and in the care, custody, control, management and
possession of Citi Bank, a bank, the deposits of which were then insured by the Federal
Deposit Insurance Corporation, and the defendants, in committing aforesaid act, did
assault and put in jeopardy the lives of bank employees and customers by use of a
dangerous weapon, namely, a firearm.
In violation of 18 U.S.C. §§ 2113(a) and (d) and 18 U.S.C. § 2.

Superseding Indictment -- Page 48

100a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 49 of 75 PageID 240

Count Thirty-Nine
Using and Carrying a Firearm During and in
Relation to, and Possessing a Firearm in Furtherance of,
a Crime of Violence
(Violation of 18 U.S.C. § 924(c)(l)(C)(i))
On or about January 28, 2008, in the Dallas Division of the Northern District of
Texas, Corey Deyon Duffey, Tony R. Hewitt, Jarvis Dupree Ross, Darobie Kentay

Stenline, and Charles Runnels, the defendants, during and in relation to a crime of
violence, namely bank robbery, in violation of 18 U.S.C. §§ 2113(a) and (d), as alleged in
Count Thirty-Eight of this indictment, for which they may be prosecuted in a court of the
United States, did knowingly use and carry a firearm, and the defendants knowingly
possessed said firearm in furtherance of the commission of this offense.
In violation of 18 U.S.C. § 924(c)(l)(C)(i).

Superseding Indictment -- Page 49

101a

•

•Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 50 of 75 PageID 241

Count Forty
Felon in Possession of a Firearm
(Violation of 18 U.S.C. §§ 922(g)(l) and 924(a)(2))
On or about April 13, 2008, in the Dallas Division of the Northern District of
Texas, the defendant, Charles Runnels, having being convicted of a crime punishable by
imprisonment for a term exceeding one year, did knowingly and unlawfully possess in
and affecting interstate and foreign commerce a firearm, to wit: a Ruger, Model P85, 9
millimeter pistol, bearing serial number 30372143.
In violation of 18 U.S.C. §§ 922(g)(l) and 924(a)(2).

Superseding Indictment -- Page 50

102a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 51 of 75 PageID 242

Count Forty-One
Felon in Possession of a Firearm
(Violation of 18 U.S.C. §§ 922(g)(l) and 924(a)(2))
On or about April 14, 2008, in the Dallas Division of the Northern District of
Texas, the defendant, Charles Runnels, having being convicted of a crime punishable by
imprisonment for a term exceeding one year, did knowingly and unlawfully possess in
and affecting interstate and foreign commerce a firearm, to wit: a Llama, .45 caliber
pistol, bearing serial number 71-04-08871-02.
In violation of 18 U.S.C. §§ 922(g)(l) and 924(a)(2).

Superseding Indictment -- Page 51

103a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 52 of 75 PageID 243

"

Count Forty-Two
Felon in Possession of a Firearm
(Violation of 18 U.S.C. §§ 922(g)(l) and 924(a)(2))
On or about April 25, 2008, in the Dallas Division of the Northern District of
Texas, the defendant, Jarvis Dupree Ross, having being convicted of a crime punishable
by imprisonment for a term exceeding one year, did knowingly and unlawfully possess in
and affecting interstate and foreign commerce a firearm, to wit: a Hi-Point, Model C9, 9
millimeter pistol, bearing serial number Pl 76287.
In violation of 18 U.S.C. §§ 922(g)(l) and 924(a)(2).

Superseding Indictment -- Page 52

104a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 53 of 75 PageID 244

Count Forty-Three
Forfeiture Allegation
(18 U.S.C. § 924(d) and 28 U.S.C. § 246l(c); 18 U.S.C. § 3665)
Upon conviction for the offenses alleged in Counts Two, Four, Five, Six, Seven,
Eight, Eleven, Thirteen, Seventeen, Nineteen, Twenty-One, Twenty-Three, Twenty-Five,
Twenty-Seven, Twenty-Nine, Thirty-One, Thirty-Three, Thirty-Five, Thirty-Seven,
Thirty-Nine, Forty, Forty-One, or Forty-Two of this Superseding Indictment and pursuant
to 18 U.S.C. § 924(d) and 28 U.S.C. § 246l(c), Corey Deyon Duffey, Tony R. Hewitt,

Jarvis Dupree Ross, Darobie Kentay Stenline, Charles Runnels, Antonyo Reece, and
Yolanda McDow, the defendants, shall forfeit to the United States of America any
firearm and ammunition involved in the commission of the respective offense(s).
Upon conviction for any of the offenses alleged in Counts One through Forty-Two
of this Indictment and pursuant to 18 U.S.C. § 3665, Corey Deyon Duffey, Tony R.

Hewitt, Jarvis Dupree Ross, Darobie Kentay Stenline, Charles Runnels, Antonyo
Reece, and Yolanda McDow, the defendants, shall forfeit to the United States of
America all firearms and ammunition found in the possession of or under the immediate
control of the respective defendant at the time of that defendant's arrest.
The above-referenced property subject to forfeiture concerning the previouslymentioned defendants includes, but is not limited to, the following:
a.

a DPMS Black Panther Arms, Model A-15, .223 caliber rifle bearing serial
number F0893 l 3 with scope and drum magazine.
[sought from Corey Deyon Duffey]

Superseding Indictment -- Page 53

105a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

b.

c.

d.

e.

f.

g.

h.

i.

J.

k.

1.

Page 54 of 75 PageID 245

a Ruger, Model P85, 9 millimeter pistol bearing serial number 30372143
with magazine.
[sought from Antonyo Reece and Charles Runnels]
a Glock, Model 19, 9 millimeter pistol bearing serial number LGE461 with
magazme. ·
[sought from Tony R. Hewitt]
a Taurus 9 millimeter pistol bearing serial number TLC423 310 with
magazine.
[sought from Corey Deyon Duffey]
a Mossberg 12 gauge shotgun (equipped with a collapsible stock, pistol
grip, and flash suppressor) bearing serial number R812616.
[sought from Corey Deyon Duffey]
a Browning Hi-Power .40 caliber pistol bearing serial number
2W5NV57052 with magazine.
[sought from Tony R. Hewitt]
a Glock, Model 32, .357 caliber pistol bearing serial number KZG 161 with
magazme.
[sought from Jarvis Dupree Ross]
a Colt, Model MK4, .45 caliber pistol bearing serial number FG07540 with
magazine.
[sought from Charles Runnels]
a Bryco Arms, Model Jennings 59, 9 millimeter pistol bearing serial number
796572 with magazine.
[sought from Yolanda McDow]
a Llama, .45 caliber pistol, bearing serial number 71-04-08871-02 with
magazme.
[sought from Charles Runnels]
a Hi-Point, Model C9, 9 millimeter pistol, bearing serial number Pl 76287
with magazine.
[sought from Jarvis Dupree Ross]
Assorted firearm ammunition seized on April 14, 2008, April 25, 2008, and
June 2, 2008.

Superseding Indictment -- Page 54

106a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

.
..

..

RICHARD B. ROPER
UNITED STATES ATTORNEY

\.
('·/Ji

l/

Louisiana Bar Roll No. 226
1100 Commerce Street, Third loor
Dallas, Texas 75242-1699
E-Mail:gary.tromblay@usdoj.gov
Telephone: 214.659.8638
Facsimile: 214.767.4913

Ass· tant United States Attorney
Texas State Bar No. 00791057
1100 Commerce Street, Third Floor
Dallas, Texas 75242-1699
E-Mail :j ohn.kull@usdoj.gov
Telephone: 214.659.8738
Facsimile: 214.659.8803

Superseding Indictment -- Page 55

107a

Page 55 of 75 PageID 246

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

r-

U.S. DISTIUCT COUll.T

Page 56 NORTHERNUISTRICJOF
of 75 PageID 247
TBf.\S

· ·FILED..

IN THE UNITED STATES DISTRICT COU T
FOR THE NORTHERN DISTRICT OF TE
S
DALLAS DIVISION

CLERX,u\s.'~11U<t'fCOURT
By

THE UNITED STATES OF AMERICA
v.
COREY DEYON DUFFEY (01 ),
a.k.a. "Keyno", a.k.a."Calvin Brown";
TONY R. HEWITT (02), a.k.a. "Priceless T";
JARVIS DUPREE ROSS (03),
a.k.a. "Dookie", a.k.a. "Dapree Dollars";
DAROBIE KENTA Y STENLINE (04),
a.k.a. "Fish", a.k.a. "Dude White";
CHARLES RUNNELS (05), a.k.a. "Junior";
ANTONYO REECE (06), a.k.a. "Seven";
YOLANDA McDOW (07), a.k.a. "Yo"

SUPERSEDING INDICTMENT

18 u.s.c. § 371
Conspiracy to Commit Bank Robbery
18 U.S.C. § 924( c)(l)(A)(i)
Using, Carrying, and Brandishing a Firearm During and in
Relation to, and Possessing a Firearm in Furtherance of, a Crime of Violence
18 U.S.C. §§ 2113(a)and (d) and 18 U.S.C. § 2
Attempted Bank Robbery
18 U.S.C. §§ 922(g)(l) and 924(a)(2)
Felon in Possession of a Firearm
18 U.S.C. § 111
Assault on a Federal Officer
18 U.S.C. § 120l(a)(l)
Kidnapping
108a

..

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 57 of 75 PageID 248i

18 U.S.C. §§ 2113(a) and (d) and 18 U.S.C. § 2
Bank Robbery
18 U.S.C. § 924(d) and 28 U.S.C. § 2461 (c); 18 U.S.C. § 3665
Forfeiture Allegation
43 Counts

Filed in open court this

t-kv

7

/j?

da

/

November, 2008, A.D.

Clerk
ARRANTS TO BE ISSUED dll

Criminal# 3:08-CR-167-B

109a

.

1

'

Revised 3/5/98
Page 58 of 75 PageID 249

.Criminal Case Cover Sheet

Case 3:08-cr-00167-B Document 97 Filed 11/19/08
UNITED STATES DISTRICT COURT
NORTHERN ~RICT OF TEXAS
I.

11
·.G .(';~d~ant In~ormat1'on
,~~

Superseding Indictment:

l ~ YesL

Pending CR Case in NDTX: '

11

Juvenile:

Related Case Information

No

New Defendant: i

~Yes

1

X

1

No

Yes· X No If Yes, number: 3:08-CR-167-B

Yes X. No

Yes

R 20 from District of _ _ _ _ _ _ _ _-+-~f---------

No

NOV I 9 2008

Magistrate Case Number:

If Yes, Matter to be sealed:

Defendant Name

COREY DEYON DUFFEY

Alias Name

a.k.a Keyno;

,,~LLE-RK-.-u--.s-.-=-01::::-sr=R::::-:IC;;-:;T:-;C::-O;~URT
N DISTRICT OF

a.k.a. Calvin Brown

Address

. County in which offense was committed:
2.

U.S. Attorney Information

AUSA GARY C. TROMBLAY
3.

Interpreter
Yes

4.

Bar #. LA Bar Roll No. 22665

i)( No

If Yes, list language and/or d i a l e c t : - - - - - - - - - - - - - - - - -

Location Status

Arrest Date - No Warrant To Be Issued

_c

5.

Already in Federal Custody as of
Already in State Custody
On Pretrial Release

U.S.C. Citations

Total# of Counts as to This Defendant:

Citation

:-· ip
: : etty

32

Misdemeanor

Description of Offense Charged

ix Felony
Count(s)

18 U.S.C. § 371

Conspiracy to Commit Bank Robbery

1,14,15,
16,20,24
28,32,36

18 U.S.C. § 924( c)(l)(A)(i)

Using and Carrying a Firearm and in Relation
to, and Possessing a Firearm in Furtherance of,
a Crime of Violence

2, 4, 17
19, 21, 23
25, 27, 29,
31,33,35
37,39

110a

t

...
Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 59 of 75 PageID 250

18 U.S.C. §§ 2113(a) and (d) and
18 U.S.C. § 2

Attempted Bank Robbery

3, 18

18 U.S.C. §§ 922(g)91) and
924 (a)(2)

Felon in Possession of a Firearm

5

18 U.S.C. §§ 2 l 13(a) and (d)
and 18 U.S.C. § 2

Bank Robbery

22, 26, 30,
34,38

18 U.S.C. § 924(d) and
28 U.S.C. § 2461;
18 U.S.C. § 3665

Forfeiture

43

Date November 13, 2008
YC. TRO

111a

Criminal Case diver Sheet

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Related Case Information

UNITE~ DISTRICT COURT
NOR

STRICT OF TEXAS

r .,,,... ,:,...

1.

Superseding·Indictment:

Yes X

i

xi Yes'.. No

New Defendant: •

.Jtes

'X No

Pending CR Case in NDTX: , XiVES • • No lfY'.~s, number:3:08-CR-167-B

.· Defendant Information
Juvenile:

Revised 3/5/98
Page 60 of 75 PageID 251

Search Warrant Case Number ------!:::=R:C:P-9i+iEF\"-h

No

If Yes, Matter to be sealed:
Yes

NOV

Magistrate Case Number:

'){ No

Defendant Name

TONY R. HEWITT

Alias Name

a.k.a Priceless T

'I 9 2008

CLERK, U.S. DISTRICT COURT
ICT OF TC> ··
NORTHERN DI

Address

County in which offense was committed:
2.

DALLAS

U.S. Attorney Information

AUSA GARY C. TROMBLAY
3.

Interpreter
Yes

4.

Bar# LA Bar Roll No. 22665

,.X

No

If Yes, list language and/or d i a l e c t : - - - - - - - - - - - - - - - - - -

Location Status
Arrest Date - No Warrant To Be Issued
Already in Federal Custody as of
Already in State Custody
On Pretrial Release

5.

U.S.C. Citations
Total # of Counts as to This Defendant:

Citation

32

Petty

Misdemeanor

Description of Offense Charged

Xfelony

Count(s)

18 U.S.C. § 371

Conspiracy to Commit Bank Robbery

1, 14, 15,
16,20,24
28,32,36

18 U.S.C. § 924( c)(l)(A)(i)

Using and Carrying a Firearm and in Relation
to, and Possessing a Firearm in Furtherance of,
a Crime of Violence

2, 4, 17,
19,21,23
25, 27, 29,
31,33,35
37,39

112a

.
Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 61 of 75 PageID 252

18 U.S.C. §§ 2113(a) and (d) and
18 U.S.C. § 2

Attempted Bank Robbery

3, 18

18 U.S.C. §§ 922(g)91) and
924 (a)(2)

Felon in Possession of a Firearm

6

18 U.S.C. §§ 2113(a) and (d)
and 18 U.S.C. § 2

Bank Robbery

22, 26, 30,
34,38

18 U.S.C. § 924(d) and
28 U.S.C. § 2461;
18 U.S.C. § 3665

Forfeiture

43

Date: 11/13/2008

Signature of AUSA:

113a

Criminal ~se Cover Sheet

Revised 3/5/98

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Related Case Information

UNITED STA~ISTRICT COURT
NORT~~a\

RICT OF TEXAS

,.. J.i''

1.

0 r~:fendant Information
Juvenile:

[] Yes

lXJ

Page 62 of 75 PageID 253

Superseding Indictment: [

X

YiesX No New Defendant:

····J).res

[,)(_ No

Pending CR Case in NDTX: .[_- Ye[]No !(Yes, number:J:08-CR-167-B

No

Search Warrant Case Number -----r:;::f!~~~::!::!=~

If Yes, Matter to be sealed:
Magistrate Case Number:

X No

Yes

Defendant Name

DAROBIE KENTAY STE

Alias Name

a.k.a Fish;

a.k.a. Dude White

Address

County in which offense was committed:
2.

DALLAS

U.S. Attorney Information

AUSA GARY C. TROMBLAY
3.

Interpreter
-iYes

4.

Bar# LA Bar Roll No. 22665

;x

No

If Yes, list language and/or dialect: _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ __

Location Status
Arrest

Date~arrant To Be Issued

Already in Federal Custody as of
Already in State Custody
On Pretrial Release

5.

U.S.C. Citations
Total# of Counts as to This Defendant:

Citation

31

_ Petty

·-··

!

Misdemeanor

Description of Offense Charged

1

X Felony

Count(s)

18 U.S.C. § 371

Conspiracy to Commit Bank Robbery

1, 14, 15,
16,20,24
28,32,36

18 U.S.C. § 924( c)(l)(A)(i)

Using and Carrying a Firearm and in Relation
to, and Possessing a Firearm in Furtherance of,
a Crime of Violence

2, 4, 17,
19,21,23
25, 27, 29,
31,33,35
37,39

114a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 63 of 75 PageID 254

18 U.S.C. §§ 2113(a) and (d) and
18 U.S.C. § 2

Attempted Bank Robbery

3, 18

18 U.S.C. §§ 2113(a) and (d)
and 18 U.S.C. § 2

Bank Robbery

22, 26, 30,
34,38

18 U.S.C. § 924(d) and
28 U.S.C. § 2461;
18 U.S.C. § 3665

Forfeiture

43

I

Date

. f l(L

?

/"?. t~.· l; ~ l

Signature of AUSA:

y

115a

"

Criminal Ccqe"·cover Sheet

Revised 3/5/98
Page 64 of 75 PageID 255

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Related Case Information
UNITED STAT~l{l]STRIC TCOURT
NORTHE~~ICT 0 FTEXAS Superseding Indictment: •x Yes _JNo New Defendant: Xres
1

c .

1.

-. Defendant Information
Juvenile:

LJ

Yes

ii

i

Pending CR Case in NDTX: :_

No

If Yes, Matter to be seal ed:
Yes

XNo

r-- --

i

Yes lX! No If Yes, number: 3:08-CR-167-8

Search Warrant Case Number

.

R 20 from District of

r

.

___ ':".---,

;

Magistrate Case Number:

i){ No

-, r-C ..t:. IV"I."" I 1..

!:i:-ill-

:]o
~;f,

~~.

NOV \ 9 ?mo

JARVIS DUPREE ROSS

Defendant Name

''

__ J

.?-c

·,_, rr:io<

'

11 S

NORTHERN

DISTf~ICT COUP1

DIS!~':'...'--~

a.k.a Dookie; a.k.a. Dapree Dollars

Alias Name
Address

County in which offense was committed:

2.

DALLAS

U.S. Attorney Information

AUSA GARY C. TROMBLAY
3.

Interpreter
: ,Yes

4.

Bar# LA Bar Roll No. 22665

-_x

No

If Yes, list language and/or dialect: _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ __

Location Status
Arrest Date - No Warrant To Be Issued
Already in Federal Custody as of
Already in State Custody
On Pretrial Release

5.

U.S.C. Citations
Total # of Counts as to This Defendant:

Citation

35

Petty

• Misdemeanor

Description of Offense Charged

XFelony

Count(s)

18 U.S.C. § 371

Conspiracy to Commit Bank Robbery

1, 14, 15,
16,20,24
28,32,36

18 U.S.C. § 924( c)(l)(A)(i)

Using and Carrying a Firearm and in Relation
to, and Possessing a Firearm in Furtherance of,
a Crime of Violence

2, 4, 13, 17,
19, 21, 23
25, 27, 29,
31, 33, 35
37,39

116a

I
I

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 65 of 75 PageID 256

18 U.S.C. §§ 2113(a) and (d) and
18 U.S.C. § 2

Attempted Bank Robbery

3, 18

18 U.S.C. §§ 922(g)91) and
924 (a)(2)

Felon in Possession of a Firearm

7,42

18 U.S.C. §§ 2113(a) and (d)
and 18 U.S.C. § 2

Bank Robbery

22, 26, 30,
34,38

18 U.S.C. § 1201(a)(l)

Kidnapping

12

18 U.S.C. § 924(d) and
28 U.S.C. § 2461;
18 U.S.C. § 3665

Forfeiture

43

//

Date

l( /
!

I

t ·?(!J==b

Signature of AUSA:

y

117a

Crimf1rat Cas! Cover Sheet

Case 3:08-cr-00167-B Document 97 Filed 11/19/08
UNITED

S~p.\f DISTRICT COURT

Related Case Information

~~'}lN DISTRICT OF TEXAS

1.

Superseding Indictment:

[xJ

YeslJ No

New Defendant:

[_.2lres

,Xj No

Pending CR Case in NDTX: K~i Yd~jNo If Yes, number: 3:08-CR-167-B

Defendant Information

Search Warrant Case Number _ _ _ _ _ _ _ _ _ _ _ _ _ __

i··-:

Yes lX_, No

Juvenile:

Revised 3/5/98
Page 66 of 75 PageID 257

If Yes, Matter to be sealed:

~X No

Yes

1

Magistrate Case Number:

i

Defendant Name

CHARLES RUNNELS

Alias Name

a.k.a "Junior"

Address

County in which offense was committed:

2.

DALLAS

U.S. Attorney Information

AUSA GARY C. TROMBLAY
3.

Interpreter
iYes

4.

Bar# LA Bar Roll No. 22665

X1

No

If Yes, list language and/or dialect: _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ __

Location Status
Arrest Date - No Warrant To Be Issued
Already in Federal Custody as of
Already in State Custody
On Pretrial Release

5.

U.S.C. Citations
Total # of Counts as to This Defendant:

Citation

35

· Petty

Misdemeanor

Description of Offense Charged

X Felony

Count(s)

18 U.S.C. § 371

Conspiracy to Commit Bank Robbery

1, 16,20,24
28,32,36

18 U.S.C. § 924( c)(l)(A)(i)

Using and Carrying a Firearm and in Relation
to, and Possessing a Firearm in Furtherance of,
a Crime of Violence

2, 4, 17,
19, 21, 23
25, 27, 29,
31,33,35
37,39

118a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 67 of 75 PageID 258

18 U.S.C. §§ 2113(a) and (d) and
18 U.S.C. § 2

Attempted Bank Robbery

3, 18

18 U.S.C. §§ 922(g)91) and
924 (a)(2)

Felon in Possession of a Firearm

8, 9, 10, 11
40,41

18 U.S.C. §§ 2113(a) and (d)
and 18 U.S.C. § 2

Bank Robbery

22, 26, 30,
34,38

18 U.S.C. § 924(d) and
28 U.S.C. § 2461;
18 U.S.C. § 3665

Forfeiture

43

11113/2008
Date

Signature of AUS.A:.

119a

~t'imjnu'f

Revised 3/5/98

Case Cover Sheet

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

\

. UNITED

STA~ISTRICT COURT

No~DISTRICT OF TEXAS

I.

Yes

!X No

If Yes, Matter to be sealed:

Yes

Related Case Information
Superseding Indictment:

xi

I

yds_-;No

New Defendant: Pres

ix:

No

Pending CR Case in NDTX: i-:X]Yes l-No If Yes, number: 3:08-CR-167-B

Defendant Information
Juvenile:

Page 68 of 75 PageID 259

Search Warrant Case Number _ _ _ _____._::;;;.;._-:::-:=~'r=mfi§R-:::l
R 20 from District of _ _ _ _ _ _ _
Magistrate Case Number:

I~ No

Defendant Name

ANTONYO REECE

Alias Name

a.k.a "Seven"

L_:_...R~E~C~::::::=:=:i_
rN tl 9 2008

Address

County in which offense was committed:

2.

DALLAS

U.S. Attorney Information

AUSA GARY C. TROMBLAY
3.

Interpreter
Yes

4.

Bar# LA Bar Roll No. 22665

:X[

No

If Yes, list language and/or dialect: _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ __

Location Status
Arrest Date - No Warrant To Be Issued
Already in Federal Custody as of
Already in State Custody
On Pretrial Release

5.

U.S.C. Citations
Total# of Counts as to This Defendant:

Citation

15

: Petty

I

; Misdemeanor

Description of Offense Charged

XFelony

Count(s)

18 U.S.C. § 371

Conspiracy to Commit Bank Robbery

1, 16, 20,

18 U.S.C. § 924( c)(l)(A)(i)

Using and Carrying a Firearm and in Relation
to, and Possessing a Firearm in Furtherance of,
a Crime of Violence

2, 4, 17,
19,21,23
35,

120a

'

Case 3:08-cr-00167-B Document 97 Filed 11/19/08 Page 69 of 75 PageID 260
3, 18
18 U.S.C. §§ 2113(a) and (d) and
Attempted Bank Robbery
18 U.S.C. § 2
18 U.S.C. §§ 922(g)91) and
924 (a)(2)

Felon in Possession of a Firearm

18 U.S.C. §§ 2113(a) and (d)
and 18 U.S.C. § 2

Bank Robbery

22, 30,

18 U.S.C. § 924(d) and
28 U.S.C. § 2461;
18 U.S.C. § 3665

Forfeiture

43

11/13/2008
Date - - - - - - - -

Signature of AUSA:

121a

,

,,.

Revised 3/5/98
Case
3:08-cr-00167-B
Document
97
Filed
11/19/08
Page
70
of
75
PageID
261
,
. ~~\;
UNI!i)}STATES DISTRICT COURT
Related Case Information
t.NoRTHERN DISTRICT oF TEXAs Superseding Indictment: r-~i
, -i
v_
, X No
----2S. Y ds ! No
New Defendant: -'l' es
Criminal Case Cover Sheet

1.

Defendant Information

Pending CR Case in NDTX:

Lxl

Ye~] No If Yes, number:3:08-C]l-167~B

r---,

Juvenile:

Yes lXJ No

If Yes, Matter to be sealed:

X

Yes

Magistrate Case Number:

No

YOLANDA McDOW

Defendant Name
Alias Name
Address

County in which offense was committed:

2.

DALLAS

U.S. Attorney Information

AUSA GARY C. TROMBLAY
3.

Interpreter
iYes

4.

Bar# LA Bar Roll No. 22665

X

No

If Yes, list language and/or dialect: _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ __

Location Status
Arrest Date - No Warrant To Be Issued
I

I

5.

Already in Federal Custody as of
Already in State Custody
On Pretrial Release

U.S.C. Citations
Total# of Counts as to This Defendant:

Citation

29

! Petty

' Misdemeanor

Description of Offense Charged

Count(s)

18 U.S.C. § 371

Conspiracy to Commit Bank Robbery

1, 16, 20, 24
28,32,36

18 U.S.C. § 924( c)(l)(A)(i)

Using and Carrying a Firearm and in Relation
to, and Possessing a Firearm in Furtherance of,
a Crime of Violence

2, 4, 17,
19, 21, 23
25, 27, 29,
31,33,35
37,39

122a

,.

,
Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 71 of 75 PageID 262

18 U.S.C. §§ 2113(a) and (d) and
18 U.S.C. § 2

Attempted Bank Robbery

3, 18

18 U.S.C. §§ 2113(a) and (d)
and 18 U.S.C. § 2

Bank Robbery

22, 26, 30,
34,38

18 U.S.C. § 924(d) and
28 U.S.C. § 2461;
18 U.S.C. § 3665

Forfeiture

43

11113/2008
Date - - - - - - - -

Signature of AUSA:

123a

Criminal Case Cover Sheet

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Related Case Information

UNITED STATES DISTRICT COURT
NORTHERN DIS~~T OF TEXAS
I.

a"\~'1nformation

0 kenile:

D

Yes

[XJ

Revised 3/5/98
Page 72 of 75 PageID 263

Superseding Indictment:

l::xJ YesL1o

New Defendant:

GCJNo

Pending CR Case in NDTX:
No

Search Warrant Case Number -------+-.,...,---W+-1l-i-ll""-t~I;;...

If Yes, Matter to be sealed:
Yes

l~es

NOV

Magistrate Case Number:

UNo

Defendant Name

JARVIS DUPREE ROSS

Alias Name

a.k.a Dookie; a.k.a. Dapree Dollars

19 ?008

Address

County in which offense was committed:

2.

DALLAS

U.S. Attorney Information

AUSA GARY C. TROMBLAY
3.

Interpreter

nyes
~---J

4.

Bar # LA Bar Roll No. 22665

rvr
In

No

If Yes, list language and/or dialect: _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ __

Location Status
Arrest Date - No Warrant To Be Issued
Already in Federal Custody as of
Already in State Custody
On Pretrial Release

5.

U.S.C. Citations
Total# of Counts as to This Defendant:

Citation

31

Petty

D Misdemeanor

Description of Offense Charged

IX'felony

Count(s)

18 U.S.C. § 371

Conspiracy to Commit Bank Robbery

1, 14, 15,
16,20,24
28,36

18 U.S.C. § 924( c)(l)(A)(i)

Using and Carrying a Firearm and in Relation
to, and Possessing a Firearm in Furtherance of,
a Crime of Violence

2, 4, 13, 17,
19, 21, 23
25, 27, 29,
31,
37,39

124a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 73 of 75 PageID 264

18 U.S.C. §§ 2113(a) and (d) and
18 U.S.C. § 2

Attempted Bank Robbery

3, 18

18 U.S.C. §§ 922(g)91) and
924 (a)(2)

Felon in Possession of a Firearm

7,42

18 U.S.C. §§ 2113(a) and (d)
and 18 U.S.C. § 2

Bank Robbery

22, 26, 30,
38

18 U.S.C. § 1201(a)(l)

Kidnapping

12

18 U.S.C. § 924(d) and
28 U.S.C. § 2461;
18 U.S.C. § 3665

Forfeiture

43

11/13/2008
Date - - - - - - - -

Signature of AUSA:

125a

Criminal Case Cover Sheet

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Related Case Information

UNITED STATES..:flISTRICT COURT

NORTH~~T OF TEXAS

Q~\fendant Information
Juvenile:

Yes

lXJ

Superseding Indictment: [} YtkJNo
Pending CR Case in NDTX:

1

No

Revised 3/5/98
Page 74 of 75 PageID 265

lxl

New Defendant:

[]fes

Q

No

Ye0 No If Yes, number:3:08-CR-167-B

Search Warrant Case Number _ _ _ _ _ _ _ _ _ _ _ _ _ __

If Yes, Matter to be sealed:

Yes

Magistrate Case Number:

[Jc No

YOLANDA McDOW

Defendant Name
Alias Name
Address

County in which offense was committed:
2.

DALLAS

U.S. Attorney Information

AUSA GARY C. TROMBLAY
3.

Interpreter
1·--0

LJYes

4.

Bar# LA Bar Roll No. 22665

R7t

~

No

If Yes, list language and/or d i a l e c t : - - - - - - - - - - - - - - - - - -

Location Status
Arrest Date - No Warrant To Be Issued
Already in Federal Custody as of
Already in State Custody
On Pretrial Release

5.

U.S.C. Citations
Total # of Counts as to This Defendant:

Citation

18

u.s.c. § 371

18 U.S.C. § 924( c)(l)(A)(i)

i:;;---~

25

[]Petty

Misdemeanor

Description of Offense Charged

:X_felony

Count(s)

Conspiracy to Commit Bank Robbery

1, 16, 20, 24
28, 32,

Using and Carrying a Firearm and in Relation
to, and Possessing a Firearm in Furtherance of,
a Crime of Violence

2, 4, 17,
19, 21, 23
25, 27, 29,
31,33,35

126a

Case 3:08-cr-00167-B Document 97 Filed 11/19/08

Page 75 of 75 PageID 266

18 U.S.C. §§ 2113(a) and (d) and
18 U.S.C. § 2

Attempted Bank Robbery

3, 18

18 U.S.C. §§ 2113(a) and (d)
and 18 U.S.C. § 2

Bank Robbery

22, 26, 30,
34,

18 U.S.C. § 924(d) and
28 U.S.C. § 2461;
18 U.S.C. § 3665

Forfeiture

43

f·· \

(.

11/18/2008
Date - - - - - - -

///

Signature of Al.Jsi(

127a

